<html>
<title> - MISCELLANEOUS NATIONAL PARKS BILLS AND CONCURRENT RESOLUTION SUPPORTING WORLD YEAR OF PHYSICS</title>
<body><pre>[Senate Hearing 108-704]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-704
MISCELLANEOUS NATIONAL PARKS BILLS AND CONCURRENT RESOLUTION SUPPORTING 
                         WORLD YEAR OF PHYSICS

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   on


                         S. 1852                           S. 2142

                         S. 2181                           S. 2374

                         S. 2397                           H.R. 3706

                         S. 2567                           H.R. 1113

                         S. 2432                           S. Con. Res. 121



                               __________

                             JULY 15, 2004


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
97-032                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
DON NICKLES, Oklahoma                JEFF BINGAMAN, New Mexico
LARRY E. CRAIG, Idaho                DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
LAMAR ALEXANDER, Tennessee           RON WYDEN, Oregon
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
JAMES M. TALENT, Missouri            MARY L. LANDRIEU, Louisiana
CONRAD BURNS, Montana                EVAN BAYH, Indiana
GORDON SMITH, Oregon                 DIANNE FEINSTEIN, California
JIM BUNNING, Kentucky                CHARLES E. SCHUMER, New York
JON KYL, Arizona                     MARIA CANTWELL, Washington

                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                     CRAIG THOMAS, Wyoming Chairman
                  DON NICKLES, Oklahoma Vice Chairman
BEN NIGHTHORSE CAMPBELL, Colorado    DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Carolina
CONRAD BURNS, Montana                BOB GRAHAM, Florida
GORDON SMITH, Oregon                 MARY L. LANDRIEU, Louisiana
JON KYL, Arizona                     EVAN BAYH, Indiana
                                     CHARLES E. SCHUMER, New York

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                Thomas Lillie, Professional Staff Member
                David Brooks, Democratic Senior Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Akaka, Hon. Daniel K., U.S. Senator from Hawaii..................     2
Blackwell, Charles W., Esq., Chickasaw Nation Ambassador to the 
  United States..................................................    24
Corzine, Hon. Jon, U.S. Senator from New Jersey..................     2
Jones, A. Durand, Deputy Director, National Park Service, 
  Department of the Interior.....................................     4
Lautenberg, Hon. Frank, U.S. Senator from New Jersey.............     3
Mattingly, Hon. Mack F., Former U.S. Senator, St. Simons Island, 
  GA.............................................................    22
Talent, Hon. James, U.S. Senator from Missouri...................    20
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     1
Wint, Dennis M., President and Chief Executive Officer, Franklin 
  Institute, Philadelphia, PA....................................    27

                                APPENDIX

Responses to additional questions................................    29

 
MISCELLANEOUS NATIONAL PARKS BILLS AND CONCURRENT RESOLUTION SUPPORTING 
                         WORLD YEAR OF PHYSICS

                              ----------                              


                        THURSDAY, JULY 15, 2004

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:33 p.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Craig Thomas 
presiding.

            OPENING STATEMENT OF HON. CRAIG THOMAS, 
                   U.S. SENATOR FROM WYOMING

    Senator Thomas. Good afternoon. I want to welcome our 
witnesses today to the National Parks Subcommittee hearing. Our 
purpose is to hear testimony on seven Senate bills, one Senate 
resolution, and two House bills:
    S. 1852, to provide financial assistance for the 
rehabilitation of the Benjamin Franklin National Memorial in 
Philadelphia and the development of an exhibit to commemorate 
the 300th anniversary of the birth of Benjamin Franklin;
    S. 2142, the authorize appropriations for the New Jersey 
Coastal Heritage Trail Route and for other purposes;
    S. 2181, to adjust the boundary of the Rocky Mountain 
National Park in Colorado;
    S. 2374, to provide for the conveyance of certain land to 
the United States and to revise the boundary of the Chickasaw 
National Recreation Area in Oklahoma;
    S. 2397 and H.R. 3706, to adjust the boundary of the John 
Muir National Historic Site;
    S. 2432, to expand the boundaries of Wilson's Creek 
National Battlefield;
    S. 2567, to adjust the boundary of the Redwood National 
Park in the State of California;
    Senate Concurrent Resolution 121 supports the goals and the 
ideals of the World Year of Physics; and the House bill H.R. 
1113, to authorize an exchange of land at Fort Frederica 
National Monument and for other purposes.
    So let me thank the witnesses for coming. We have quite a 
bit to cover in a single hearing, so if you are inclined to 
keep your statements precise, please pursue it recklessly and 
we will put them in full in the record.
    Senator.
    [The prepared statement of Senator Corzine follows:]

   Prepared Statement of Hon. Jon S. Corzine, U.S. Senator From New 
                           Jersey, on S. 2142

    Mr. Chairman, thank you for calling this hearing on S. 2142, which 
authorizes funding for the continued development of the New Jersey 
Coastal Heritage Trail Route. I am proud to join my colleague and 
friend Senator Frank R. Lautenberg as a sponsor of this legislation, 
and hope it will be approved promptly.
    Before I begin, let me acknowledge and congratulate Senator 
Lautenberg for his long-standing leadership on behalf of New Jersey's 
Coastal Heritage Trail. Senator Lautenberg has authored many laws that 
protect New Jersey's coastal environment, including the law requiring 
states to regularly test recreational beach water quality and the ban 
on ocean dumping of sewage sludge. It was due to his efforts, along 
with former Senator Bill Bradley, that the Coastal Heritage Trail was 
first authorized in 1988.
    I also want to recognize the efforts of Congressman Frank LoBiondo 
who has introduced companion legislation in the House, H.R. 3070, and 
who, like Senator Lautenberg, has been a strong advocate for the 
protection of New Jersey's coast line.
    Mr. Chairman, this legislation is an important continuation of a 
program that promotes the significant natural and cultural resources 
along New Jersey's coast line. Since 1988, the New Jersey Coastal 
Heritage Trail has given New Jerseyans a valuable look at our State's 
maritime history, coastal habitat and wildlife. Its interpretive 
trails, outdoor exhibits and welcome centers provide not just 
recreation, but valuable lessons for our residents.
    Since its inception, the New Jersey Coastal Heritage Trail has been 
a public-private partnership. The trail is managed by the National Park 
Service, which works with the NJ Department of Environmental Protection 
and local conservation groups. This partnership has made the trail a 
success. The $1.2 million it has received from National Park Service 
for construction of the trail, for example, has been exceeded by more 
than $3.8 million in non-federal funds, a ratio of more than 3:1.
    Unfortunately, the legislation authorizing the trail has expired. 
S. 2142 would reauthorize the Coastal Heritage Trail for five more 
years. It also would increase the total available funding from $4 
million to $8 million so that the Park Service can develop two more 
theme trails, continue work on existing trails and develop three more 
welcome centers. In addition, the legislation requires the National 
Park Service to develop a strategic plan for the trail, along with its 
other partners.
    This is important legislation that will benefit the 300 miles of 
New Jersey coast line stretching from Perth Amboy to Cape May and the 
Delaware Memorial Bridge along the Delaware Bay.
    I appreciate the Subcommittee's interest in the legislation and 
look forward to working cooperatively in an effort to secure the bill's 
approval.
    Thank you very much.

        STATEMENT OF HON. DANIEL K. AKAKA, U.S. SENATOR 
                          FROM HAWAII

    Senator Akaka. Thank you, Mr. Chairman. Glad to see my good 
friend, Senator Lautenberg, here before us and others here 
today.
    As you noted, Mr. Chairman, we have a long list of bills on 
the agenda today, although most of the bills appear to be 
noncontroversial. I believe all but one supported by the 
National Park Service will be OK. I have concerns with a couple 
of the bills which I hope to discuss more in detail with the 
Park Service witnesses in a few minutes.
    These bills reflect many of the day-to-day management 
issues that face our national parks ranging from the 
acquisition of two-tenths of an acre at the John Muir National 
Historic Site in California to the addition of 600 acres of a 
Civil War battlefield in Missouri. Other bills address issues 
affecting park neighbors, including the Chickasaw Nation in 
Oklahoma, a church near Fort Frederica in Georgia, and a ranch 
next to Rocky Mountain National Park in Colorado. Finally, 
others seek increased funding for existing popular programs.
    While these bills may seem relatively minor, they are 
important not only for the bill's sponsors but for the local 
communities and others who may be affected or who have a 
specific interest in parks.
    We have four witnesses scheduled to testify today, 
including again my good friend here, Senator Lautenberg, and I 
look forward to hearing from him and our other witnesses and 
discussing these bills in greater detail at the appropriate 
time.
    Thank you very much, Mr. Chairman.
    Senator Thomas. Thank you, Senator.
    Welcome, Senator Lautenberg. Glad to have you. Please go 
right ahead.

       STATEMENT OF HON. FRANK LAUTENBERG, U.S. SENATOR 
                        FROM NEW JERSEY

    Senator Lautenberg. Thanks, Mr. Chairman. Whenever I appear 
with a colleague who comes from a magnificent State like 
Wyoming, a beautiful State like Hawaii, and people think of New 
Jersey as an urbanized State. We happen to be the most densely 
populated in the country, almost 8 million people, and probably 
something like 7,500 square miles. It is tiny.
    We, therefore, have to take advantage of every inch of 
space that we have in a proper way. A lot of it is devoted to 
the preservation of wetlands and nature reserves. We have lots 
wildlife refuges. They are not big game, but they are precious 
game. We are on a flyway from north to south and lots of bird 
watching goes on there, a very serious interest in the 
preservation of species.
    So I appreciate the opportunity to be before you today.
    Our bill, the one that John Corzine and I have introduced, 
the New Jersey Coastal Heritage Trail Route bill, would 
reauthorize a law that was based on a bill that former Senator 
Bill Bradley and I first introduced in 1988. The law was 
extended, but it has now expired, bringing work on the trail to 
a standstill.
    The bill you are considering today would authorize a $4 
million Federal appropriation for New Jersey's Coastal Heritage 
Trail. That authority would sunset in 2009, allowing enough 
time for unfinished trail projects to be completed.
    Now, New Jersey's role in the early history of our country 
was a very important one. A significant part of our State's 
heritage is our coastal area. There is a 300-mile trail. It is 
divided into five sections that extend south from Perth Amboy, 
New Jersey to Cape May, New Jersey, and then west to Deepwater, 
New Jersey.
    New Jersey's Coastal Heritage Trail is unique. It is 
neither a national heritage area nor a national trail. 
Collaboration on this trail marked the National Park Service's 
first attempt at protecting a significant resource without 
actually acquiring it, and the experiment has been a resounding 
success. The National Park Service, the State of New Jersey, 
and many other public and private organizations have worked 
hard to preserve the State's natural and cultural heritage 
along the trail.
    The experiment also has been a bargain in real terms. 
Between 1988 and 2004, the Park Service spent $3.9 million on 
trail projects while non-Federal sources contributed $5.4 
million in matching funds. These funds are an important 
investment in New Jersey's economy. Last year 65 million 
visitors came to New Jersey. Most of the people who visited New 
Jersey go to seashore and end up spending time on parts of the 
Coastal Heritage Trail.
    Signs and exhibits along the trail entice visitors to 
explore New Jersey's maritime history, the coastal habitats, 
and wildlife migration. People think of us as a crowded, highly 
industrialized State, and we have been that, but New Jersey is 
also filled with incredible beauty that any visitor will see, 
such as a bald eagle silhouetted against a Delaware Bay sunset, 
a lone fishing boat making its way through Barnegat Inlet at 
dawn, or the quiet, dark waters flowing slowly through the Pine 
Barrens, which is a huge reserve in New Jersey. A large part of 
our State is confined to that. Such sights are also part of New 
Jersey and the Coastal Heritage Trail invites New Jerseyans and 
many other visitors to enjoy these splendors.
    So, Mr. Chairman, I sincerely hope that your subcommittee 
and the full Committee on Energy and Natural Resources will see 
fit to report this bill promptly as it is. Getting it passed 
and signed into law will help protect our environment and 
markedly improve the quality of life for millions of Americans, 
all at little cost to the Nation's taxpayers. I thank you for 
considering this bill and for inviting me to testify on its 
behalf today.
    Senator Thomas. Thank you very much, Senator. We appreciate 
your being here, and we will certainly give consideration to 
your bill.
    Senator Lautenberg. Thank you very much.
    Senator Thomas. Now, if we could go ahead and have our 
representative here from the National Park Service, Mr. Randy 
Jones, Deputy Director. Thank you for being here, Director. You 
go right ahead please.

 STATEMENT OF A. DURAND JONES, DEPUTY DIRECTOR, NATIONAL PARK 
              SERVICE, DEPARTMENT OF THE INTERIOR

    Mr. Jones. Thank you, Mr. Chairman. I have a lot of ground 
to cover, so I will move quickly. I will start with presenting 
comments and the views of the Department of the Interior on S. 
1852, a bill to provide financial assistance for the 
rehabilitation of the Benjamin Franklin National Memorial in 
Philadelphia and the development of an exhibit to commemorate 
the 300th anniversary of the birth of Benjamin Franklin. The 
Department does not support this bill.
    The bill would authorize financial assistance in the form 
of a grant to the Franklin Institute to rehabilitate the 
Benjamin Franklin National Memorial and to develop exhibits in 
an amount not to exceed $10 million.
    We are committed in the National Park Service to supporting 
initiatives to commemorate the 300th anniversary of Benjamin 
Franklin and the interpretation of his legacy, especially at 
Franklin Court, a unit of Independence National Historic Park 
in Philadelphia, which does need work in itself. So given the 
current demands on National Park Service funds, we cannot 
support this legislation. Our priority is to use available 
National Park Service funds to work at Franklin Court to do the 
work that is needed there, and that would be our top priority 
for our funds.
    Moving on to the views of the Department on S. 2142, a bill 
to authorize appropriations for the New Jersey Coastal Heritage 
Trail and for other purposes, the Department supports the bill 
and recommends an amendment to strike the new grant-making 
authority and to clarify that the Secretary prepare a strategic 
plan in partnership with the State. Funding for this trail for 
fiscal year 2005 in fact is included in the President's budget 
pending reauthorization of the trail. So it is very important 
for this legislation to proceed so that this funding can 
continue to finish the work that has been started in the last 
decade there.
    The bill has four main objectives.
    First, it would extend the authority for National Park 
Service participation in the trail for 5 years.
    Second, it would increase the appropriations authorization 
level from $4 million to $8 million.
    Third, it would require a strategic plan to be completed 
within 4 years.
    And finally, it authorizes the Secretary to provide grants 
subject to the availability of appropriations.
    Concerning the concept of the strategic plan, Mr. Chairman, 
that is actually very similar to a discussion we had when you 
held the oversight hearings on the proposal for heritage areas, 
and the position that we feel is very important is that we 
actually do business plans, with the idea of developing and 
setting a course so that these areas--and this trail is in many 
ways, while an affiliated unit of the park system, analogous to 
a heritage area, and we need to use this remaining time to set 
a course so that the area can graduate and become self-
sufficient in the future.
    Moving on to the views of the Department on S. 2181, a bill 
to adjust the boundary of Rocky Mountain National Park in the 
State of Colorado, the Department supports the bill with one 
technical amendment, which only serves to update the map 
reference.
    The bill would direct the Secretary of the Interior to 
proceed with a land exchange involving Federal lands within 
Rocky Mountain National Park and private lands owned by the 
MacGregor Ranch, located near Estes Park. This exchange would 
allow the park to address significant access issues to improve 
public access to the park while protecting the private property 
rights of landowners.
    Over the last decade at Rocky Mountain National Park, we 
have initiated a program where we have several very popular 
trails that use has severely impacted private property owners 
and their rights. So we have been working on a program to 
relocate those trail heads to park property so that we are 
minimizing the impact on private property owners.
    This legislation would authorize a boundary adjustment to 
include a small tract within the park that has been negotiated 
with the MacGregor Ranch, and in exchange, the Secretary would 
convey up to 70 acres of Federal land to the MacGregor Ranch. 
Those lands, however, would have conservation easements on them 
to the same form and extent that we already own on the rest of 
the MacGregor Ranch, which essentially limits its use to be 
used to support the cattle ranch operations essentially for 
grazing and use as a hay meadow.
    MacGregor Ranch is listed on the National Register of 
Historic Places and is owned by the charitable Muriel MacGregor 
Trust, whose purpose is educational in nature. So its use both 
as an historic area and for its own public use is actually very 
compatible as part of the park, and the entire ranch actually 
is located within the park boundary.
    Moving on to S. 2432, a bill to authorize the Secretary of 
the Interior to modify the boundaries of Wilson's Creek 
National Battlefield in the State of Missouri. The Department 
strongly supports the enactment of this legislation. The 
administration transmitted a similar proposal to Congress last 
month.
    Wilson's Creek Battlefield lies 10 miles to the southwest 
of Springfield, Missouri in one of the fastest growing areas of 
the country. The current acreage of the park 1,750 acres 
includes 75 percent of the actual combat areas associated with 
the battle and within the park boundaries. This bill would 
actually complete the inclusion in the park of the significant 
battle resources and the sacred ground that was part of that 
battle.
    The other element of this bill would also authorize the 
acquisition of the Sweeney Museum property, which is one of the 
tracts identified in this legislation, and their current 
collection, one of the most complete private Civil War artifact 
collections in existence and artifacts of very significant 
national significance. So we do support the enactment of this 
bill.
    Moving on to present the views of the Department of the 
Interior on S. 2397 and H.R. 3706, bills to adjust the 
boundaries of the John Muir National Historic Site, the 
Department supports enactment of this legislation which was 
submitted to the Congress as the administration's proposal.
    Passage of this legislation would enable the National Park 
Service to fulfill a critical element of the general management 
plan by facilitating construction of a visitor parking area. 
For technical reasons, we recommend the committee approve the 
House-passed bill rather than the Senate bill.
    The John Muir National Historic Site was established in 
1964 in recognition of John Muir's efforts as a conservationist 
and crusader for national parks. In some regards, Senator, I 
cannot help but point out I feel that this somewhat completes 
the full range of testimony before this committee. Twenty-five 
years ago, I had the honor of appearing before this committee 
in support of 57 million acres of new park land in Alaska, and 
now to testify for a bill that is two-tenths of 1 acre as an 
addition to the park certainly spans the full range of 
legislative proposals.
    [Laughter.]
    Mr. Jones. In the truest sense, however, this is an area 
that I think could be defined in laymen's terms as a survey 
glitch. We need the area added, and the House-passed bill does 
not limit us to acquisition by a willing seller. We are going 
to have to go to court on this one to determine who is the 
owner because there is no owner of record and title searches 
have not provided one. So we foresee having to go to court for 
the purposes of clearing title which the House-passed bill 
would allow us to do.
    Because of the steep terrain immediately adjacent to the 
road, this two-tenths of an acre actually is critical to the 
construction of a parking lot. This is similar to the issue at 
Rocky Mountain where our existing parking lot which allows for 
17 cars is routinely full. Overflow parking is impacting the 
neighborhoods, and this would allow us to construct a suitable 
parking lot for visitors to the area.
    Moving on to S. 2374, the bill to authorize a land exchange 
among the Chickasaw National Recreation Area and the Chickasaw 
Nation and the city of Sulphur, Oklahoma, the Department 
supports the bill with amendments.
    The bill would authorize the Secretary of the Interior to 
exchange Federal land in a three-way agreement between the 
Chickasaw Nation, the National Park Service, and the city of 
Sulphur, Oklahoma. The bill would authorize the Secretary to 
convey approximately 29 acres of land owned by the National 
Park Service to the Chickasaw Nation in exchange for 
approximately 39 acres of land donated to the Chickasaw Nation 
by the city of Sulphur and direct the Secretary to place the 
land conveyed to the Chickasaw Nation in trust for the benefit 
of the Chickasaw Nation. The bill would allow the Chickasaw 
Nation to construct a cultural center on the trust land and 
protect the watershed and riparian resources of the national 
recreation area.
    There is no doubt of the significance of the tract going to 
the reservation for the purposes of their history and their 
heritage. We think it is an appropriate that is compatible with 
the area. Furthermore, the lands that would be added to our 
jurisdiction are important lands related to the watershed of 
the area and therefore we think add significant benefit to the 
National Park Service area.
    The Department does propose two amendments to this.
    First, we are concerned that the bill does not specify what 
duties and responsibilities are required of the Secretary in 
taking the land into trust, and we would recommend the 
committee set forth those duties and responsibilities and what 
responsibilities the Secretary should assume with respect to 
the acquisition of these lands for the Chickasaw.
    And second, we would like to clarify in the bill that the 
boundary of the recreation area would be adjusted to reflect 
the exchange of both parcels. The current draft of the bill 
adds the lands to be acquired by the National Park Service, but 
does not delete the lands to be conveyed to the tribe, and we 
think those lands should be deleted from the area.
    I am getting to the end Senator.
    Thank you for the opportunity to present the Department's 
views on H.R. 1113.
    The bill would authorize an exchange of land at Fort 
Frederica National Monument in Georgia.
    The Department supports this exchange between Christ 
Church, Frederica, and Fort Frederica National Monument, as 
outlined in the House-passed bill.
    The bill would authorize the Secretary to convey to Christ 
Church, Frederica, located on St. Simon's Island, Georgia, 
approximately 6 acres of land within the boundaries of Fort 
Frederica National Monument, in exchange for approximately 8.7 
acres of land near Fort Frederica that would be acquired by the 
church. The 8.7-acre site that the church proposes to exchange 
for the land contains archaeological remains that have been 
established to be from and are significant to the colonial 
period, which is consistent with the theme of the park.
    This is not the first proposal that was developed for this 
exchange. We had concerns about the very first proposal that 
was initiated by the church a few years ago. In the 
negotiations, the alternate tract was identified which we think 
does merit inclusion in the park and is a good proposal.
    Finally, presenting the views of the Department on S. 2567, 
a bill to adjust the boundary of Redwood National Park in the 
State of California, the Department supports the enactment of 
this bill.
    The legislation would enable the National Park Service and 
the California Department of Parks and Recreation to manage a 
large swath of State-owned redwood forest land known as the 
Mill Creek property under the same terms that the State park 
lands currently within the boundaries of Redwood National Park 
are managed. There would be no Federal cost for land 
acquisition or development resulting from this legislation, 
only negligible operation and maintenance costs.
    The Mill Creek property was purchased by the Save the 
Redwoods League for $60 million from the Stimson Lumber 
Company. The land became part of the California State park 
system in June 2002 and is being managed under an interim plan 
pending action by Congress to add the property to Redwood 
National Park.
    Mr. Chairman, that does complete my testimony on all these 
bills and I would be happy to answer any of the committee's 
questions and offer all of my testimonies in their complete 
length for the record.
    [The prepared statements of Mr. Jones regarding S. 1852, S. 
2142, S. 2181, S. 2432, S. 2397, H.R. 3706, S. 2374, H.R. 1113, 
and S. 2567 S. 2567 follow:]

 Statement of A. Durand Jones, Deputy Director, National Park Service, 
                       Department of the Interior

                               ON S. 1852

    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on S. 
1852, a bill to provide financial assistance for the rehabilitation of 
the Benjamin Franklin National Memorial in Philadelphia, Pennsylvania, 
and the development of an exhibit to commemorate the 300th anniversary 
of the birth of Benjamin Franklin. The Department does not support this 
bill.
    This bill would authorize financial assistance in the form of a 
grant to the Franklin Institute to rehabilitate the Benjamin Franklin 
National Memorial, and to develop an exhibit featuring artifacts and 
multimedia collections relating to Benjamin Franklin, to be displayed 
at a museum adjacent to the memorial. An amount not to exceed 
$10,000,000 would be authorized to be appropriated in fiscal years 2004 
through 2008 for these purposes.
    For many years, regardless of Administrations, the Department has 
opposed legislation authorizing appropriations for non-National Park 
Service construction projects. Many of these projects, like the 
rehabilitation of the Ben Franklin National Memorial, represent an 
important contribution to the preservation of our Nation's history. 
However, each time such legislation is enacted and appropriations 
follow, it further reduces a limited amount of discretionary funds 
available to address the priority needs of our national parks and other 
programs administered by the National Park Service. With the emphasis 
we have placed on the President's initiative to reduce the deferred 
maintenance backlog, it has become more important than ever to avoid 
authorizing funding for non-National Park Service projects that would 
likely draw funds from the National Park Service's budget. We are 
committed to supporting initiatives to commemorate the 300th 
anniversary of Benjamin Franklin and the interpretation of his legacy, 
especially at Franklin Court, a unit of Independence National 
Historical Park in Philadelphia, but given the current demands on 
National Park Service funds, we cannot support this legislation.
    The Benjamin Franklin National Memorial is an affiliated area of 
the National Park System that is owned and administered by the Franklin 
Institute. The Memorial includes a colossal seated marble statue of 
Franklin carved by sculptor James Earle Fraser, which stands in the 
Rotunda of the Franklin Institute's main building at 20th Street and 
the Benjamin Franklin Parkway in Philadelphia. The statue and 
surrounding Memorial Hall was designated as the Benjamin Franklin 
National Memorial on October 25, 1972 (P.L. 92-551) and made no 
provision for appropriated funds to be used for acquisition, 
development, operation or maintenance of this Memorial. The House 
committee report on P.L. 92-551 anticipated that the Franklin Institute 
would continue to operate and maintain the Memorial at no cost to the 
government.
    A Memorandum of Agreement (MOA) entered into on November 6, 1973, 
falls under the administrative authority of Independence National 
Historical Park. The MOA outlines the major responsibilities of each 
party regarding the operations of the national memorial. The Franklin 
Institute agreed to preserve the memorial in perpetuity, that no 
substantial alterations or repairs be taken without Secretarial 
approval, that the public shall be admitted without charge to the 
memorial, and that there will be equal employment opportunities. In 
turn, the Secretary agreed to include the memorial in publications, to 
make appropriate references to it in the interpretive and information 
programs of Independence National Historical Park, and to cooperate 
with the Institute in all appropriate and mutually agreeable ways on 
behalf of the memorial.

                               ON S. 2142

    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on S. 
2142, a bill to authorize appropriations for the New Jersey Coastal 
Heritage Trail Route and for other purposes. The Department supports 
the bill if amended to strike the new grant making authority and if the 
Secretary prepares the strategic plan in partnership with the State. 
Funding for the trail for fiscal year 2005 is included within the 
President's Budget, pending reauthorization of the trail.
    S. 2142 has four main objectives. First, it would extend the 
authority for National Park Service participation in the New Jersey 
Coastal Heritage Trail Route for five years from May 2004 to May 2009. 
Second, it would increase the appropriations authorized for the trail 
from $4 million to $8 million. Third, it would require a strategic plan 
to be completed within four years that both describes opportunities to 
increase participation by national and local private and public 
interests in the planning, development, and administration of the New 
Jersey Coastal Heritage Trail Route and that outlines organizational 
options for sustaining the trail. Finally, it authorizes the Secretary 
to provide grants, subject to the availability of appropriations, to 
partners managing designated trail designations.
    The Department is opposed to the grant making authority provision 
contained in S. 2142. We cannot support this new Federal funding 
commitment at a time when we are trying to focus our available 
resources on taking care of existing National Park Service 
responsibilities. In addition, projects within the region may qualify 
for current competitive grant programs such as the Land and Water 
Conservation Fund; Save America's Treasures; Rivers, Trails and 
Conservation Assistance program; and the newly proposed Preserve 
America initiative.
    The strategic plan authorized in S. 2142 could be an important tool 
to help the trail develop a long-term management strategy that includes 
creating a self-sustaining funding mechanism that does not depend 
indefinitely on operational funding from the National Park Service. We 
would recommend that the bill be amended to require this strategic plan 
to be done in partnership with the State.
    Reauthorization of the trail would enable the National Park Service 
to complete implementation of the trail plan, as supported by the 
public and our partners in the Implementation Guide, a blueprint for 
overall trail development. Without additional time and funding, the New 
Jersey Coastal Heritage Trail Route will be left incomplete. 
Commitments to trail partners would go unfulfilled, and many additional 
natural and cultural resources would not receive the partnership 
assistance leveraged by the trail that supports public awareness and 
stewardship through this program. Implementation of the plan is also 
critical in building a base of sustainable partners and developing a 
strategy for the long-term management of the trail.
    The Act of October 20, 1988, as amended in 1994 and 1999, 
authorized the Secretary to designate a vehicular tour route in coastal 
New Jersey and to prepare an inventory of sites along the route. An 
interpretive program was also mandated to provide for public 
appreciation, education, understanding and enjoyment of important fish 
and wildlife habitats, geologic and geographical landforms, cultural 
resources, and migration routes in coastal New Jersey. The Secretary 
was authorized to provide technical assistance, prepare and distribute 
information, and erect signs along the route. The trail links national 
wildlife refuges, national parklands, National Historic Landmarks, and 
National Register sites with important historic communities, state 
parks, natural areas, and other resources to tell the story of New 
Jersey's role in shaping U.S. history and in providing internationally 
important habitats for bird and other migrations.
    The trail, an affiliated area of the National Park System, is a 
partnership among the National Park Service; the State of New Jersey 
through its Department of Environmental Protection, Commerce and 
Economic Growth Commission, and Pinelands Commission; and many local 
government and private non-profit partners. Through interpretation of 
five themes (Maritime History, Coastal Habitats, Wildlife Migration, 
Relaxation & Inspiration, and Historic Settlements), the trail brings 
attention to important natural and cultural resources along coastal New 
Jersey. The trail demonstrates the potential of new public/private 
partnerships that allow the National Park Service to meet its core 
mission of natural and cultural resource preservation along with 
interpretation and public education in a cost-efficient manner through 
technical assistance while reducing operational responsibilities. No 
Federal funds are used for operations, maintenance, or repair of any 
road or related structure.
    The trail has been authorized an appropriation of not more than 
$4,000,000 to carry out its purposes during the ten years between 1994 
and May 2004. The $3.9 million in Federal support between 1994 and 2004 
included $1.2 million in development funding and $2.3 million in 
National Park Service operational support. The trail has received $1.9 
million in cash grants and $3.6 million in selected in-kind 
contributions and partnership support, well exceeding the one-to-one 
matching requirement established by the 1994 amendments. Since the 
authorization ceiling has almost been met, the Department supports 
increasing the ceiling by an additional $4 million.
    The New Jersey Coastal Heritage Trail Route has special value to 
the National Park Service. With over 10 years of experience behind it, 
it serves as a model for successful partnerships among the Federal 
government, state and local governments, and partner organizations. 
Instead of traditional Federal ownership, the Trail uses technical 
assistance through interpretation as the protection strategy for the 
resources along the 300 miles of New Jersey coastline where people 
continue to live and work. Land ownership and day-to-day operations 
remain with the partner organizations and agencies. It is an example of 
an integrated system of local, state, and Federal partnership 
cooperation with people working on a state-wide level to promote 
preservation and stewardship of resources as well as economic 
development strategies. It is an excellent example of the ``seamless 
network of parks'' strategy encouraged by the Department. The costs are 
very modest when compared to the management expense of national park 
units.
    For example, the Delsea Region Welcome Center for the trail is 
located at Fort Mott State Park. The State contributed workspace, 
rehabilitated the building, assisted with exhibit development, and has 
operated and staffed the facility since it opened in 1993. The National 
Park Service assisted by developing exhibits for both the park and for 
the trail, and by preparing an audio-visual orientation program. 
Attendance at Fort Mott has nearly quadrupled since becoming a trail 
destination and Welcome Center.
    The trail produces brochures and a web page that provide national 
visibility to destinations and resources that might otherwise be 
overlooked. Over sixty destinations are linked under the five 
interpretive themes. All trail destinations provide their own 
management, staffing, and public programs. The trail supports 
ecotourism and heritage tourism initiatives in New Jersey where tourism 
is the second largest employer, creating over 400,000 jobs in 2003 and 
bringing in $26 billion in tourism-related expenditures. Last year over 
50 million visits were made to the New Jersey shore regions--a huge 
audience for the awareness, preservation, and stewardship message of 
the trail. Millions of visitors go to the New Jersey Shore to enjoy the 
beaches in the summer. The trail not only provides rainy day 
alternatives for tourists, but it also extends the summer season and 
provides additional year-round opportunities for both residents and 
visitors who visit the Jersey Shore on an annual basis.
    The trail has also supported cutting edge environmental and 
migratory habitat research through two National Park Foundation grant 
projects in partnership with New Jersey Audubon using Doppler radar and 
acoustic sound recordings to track nighttime songbird migration through 
New Jersey. This is critical as New Jersey lies along the migratory 
Atlantic Flyway, and the Delaware Bayshore region of New Jersey is 
designated as a Ramsar Treaty Wetland of International Importance 
component of the Western Hemisphere Shorebird Reserve Network, and a 
site in the Nature Conservancy's Last Great Places Program.

                               ON S. 2181

    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on S. 2181, a bill to adjust the 
boundary of Rocky Mountain National Park in the State of Colorado.
    The Department supports S. 2181 with a technical amendment to 
update the map reference. This bill would direct the Secretary of the 
Interior to proceed with a land exchange involving Federal land within 
Rocky Mountain National Park and private lands owned by the MacGregor 
Ranch, located near Estes Park, Colorado. This exchange would allow the 
park to address significant access issues to improve public access to 
the park while protecting the private property rights of landowners. 
The Secretary would receive title to three parcels of vacant land 
encompassing approximately 6 acres. Two of the parcels are located 
within the authorized boundary of Rocky Mountain National Park. This 
legislation would authorize a boundary adjustment to include the third 
parcel within the park boundary. In exchange for the three parcels, the 
Secretary would convey up to 70 acres of Federal land to the MacGregor 
Ranch. As a condition of the land exchange, the Secretary would reserve 
a perpetual easement on the Federal parcel for the purposes of 
protecting, preserving and enhancing the conservation values of the 
Federal parcel. The parcel conveyed to the MacGregor Ranch will remain 
within the authorized boundary of the park, and will be used as an 
irrigated hay meadow and for grazing cattle.
    Rocky Mountain National Park was established by Congress on January 
26, 1915, for the benefit and enjoyment of the people of the United 
States and to protect the natural conditions and scenic beauties of 
this portion of the Rocky Mountains. The park currently encompasses 
approximately 266,000 acres and has some of the most beautiful mountain 
scenery to be found anywhere in our country. Each year the park draws 
over 3 million visitors.
    The MacGregor Ranch was homesteaded in 1873, which predates the 
establishment of Rocky Mountain National Park. In 1917, shortly after 
the establishment of the national park, the National Park Service built 
a residence for park employees just inside the park boundary, with 
access via a one-lane dirt road which crosses the MacGregor Ranch for 
about 3/4 of a mile. This access was provided with the permission of 
the MacGregor family, but no easement, right-of-way, or other legal 
document was ever recorded.
    The MacGregor Ranch is listed on the National Register of Historic 
Places and is owned by the charitable Muriel MacGregor Trust. The 
mission of the Trust is to support youth education through the 
preservation and interpretation of the historic buildings and 
educational tours of this working high mountain cattle ranch. In 1980, 
the boundary of Rocky Mountain National Park was amended to include 
much of the MacGregor Ranch, and in 1983 the National Park Service 
purchased a conservation easement covering 1,221 acres of the ranch. 
While much of the ranch is located within the authorized boundary of 
the national park, it remains private property.
    In the early 1970's, hikers and rock climbers began using the 
access road through the MacGregor Ranch to reach a small parking lot 
located just inside the park boundary. Known as the Twin Owls 
trailhead, the popularity of the area has grown steadily. In recent 
years, overflow parking has negatively impacted the ranch, and traffic 
on the one-lane access road has negatively affected the character of 
the historic homestead and has diminished the quality of the historic 
scene that visitors to the ranch come to experience.
    For several years, the National Park Service and the MacGregor 
Ranch have been working to find a solution to the traffic and parking 
problems. Several Environmental Assessments have been prepared to 
examine various alternatives and gather public input. In 2003, based on 
public input and an Environmental Assessment, the National Park Service 
decided to relocate the Twin Owls parking lot to the east end of the 
MacGregor Ranch, some distance away from the historic homestead. A new 
access road and a larger trailhead parking lot that can accommodate 80 
to 100 cars will be built at the new location.
    So that the rules and regulations governing Rocky Mountain National 
Park can be enforced at the new trailhead and along the access road, 
the land needs to be incorporated into the national park. To accomplish 
this, the MacGregor Trust and the National Park Service have agreed to 
a land exchange. The three parcels acquired by the National Park 
Service will be used for the development of the new parking lot and 
access road. The conveyance of up to 70-acres of Federal land to the 
MacGregor Ranch with a conservation easement will ensure that the 
property is used solely for ranching.
    No appraisals have been done on the properties to be included in 
the land exchange; however, the National Park Service believes that the 
lands are of comparable value. It is estimated that the cost of the 
exchange could be approximately $13,000, which includes an 
environmental site assessment and other closing costs.
    The estimated development cost for the parking lot, access road, 
vault toilet, connector trail and related improvements is $800,000. 
Rocky Mountain National Park has already programmed the funds for this 
development from 80% Fee Demonstration and National Parks Pass 
revenues. Annual operating costs are not expected to increase as the 
new development is replacing existing facilities and employs 
sustainable design principles.

                           PROPOSED AMENDMENT

    Page 2, line 4 strike ``121/60,467, dated September 12, 2003.'' and 
insert ``121/80,154, dated June 2004.''.

                               ON S. 2432

    Mr. Chairman, thank you for the opportunity to testify on S. 2432, 
a bill to authorize the Secretary of the Interior to modify the 
boundaries of Wilson's Creek National Battlefield in the State of 
Missouri. The Department strongly supports enactment of S. 2432. The 
Administration transmitted a similar proposal to Congress on June 10.
    Wilson's Creek National Battlefield lies 10 miles to the southwest 
of Springfield, Missouri, in one of the fastest growing areas of the 
country. The current acreage of the park is approximately 1,750 acres, 
but only 75 percent of the actual combat areas associated with the 
battle are within the park's boundaries. S. 2432 would provide 
permanent protection from development for significant resources that 
are integral to the historic events that the park was established to 
commemorate. It would add approximately 615 acres from six parcels of 
land that make up the remaining significant resources outside the park 
boundary that are directly related to the battle. This bill also 
authorizes the acquisition of the Sweeney Museum property and 
collections, one of the most complete private civil war artifacts 
collections in existence. This expansion was included as part of the 
General Management Plan, and is the number one acquisition priority for 
the National Park Service's Midwest Region. The operational cost of the 
Sweeney collection and land structures is estimated at $500,000.
    In addition, the Act that established the park in 1960 stated ``. . 
. the Secretary of the Interior shall acquire . . . the lands (together 
with any improvements thereon) comprising the Wilson's Creek 
Battlefield site near Springfield, Missouri, and any other lands 
adjacent to such site which in his opinion are necessary or desirable 
to carry out the purposes of this Act.'' These parcels would 
significantly increase the park's capability to interpret the important 
events surrounding the battle of August 10, 1861, in which over 537 
Union and Confederate soldiers lost their lives and 2,500 were wounded.
    There are six areas proposed for inclusion within the park's 
boundaries. Area 1 encompasses 20 acres including General Sweeney's 
Museum of Civil War History, a garage, and a house. The Sweeney museum 
is a private museum that houses one of the best privately owned Civil 
War collections in the United States. The collection includes 8,000-
10,000 museum objects and numerous archives related to the Battle of 
Wilson's Creek and the Civil War in the Trans-Mississippi West. 
Acquisition of the entire Sweeney Archives & Collections is essential 
to enhance the interpretation and visitor experience of the park. It is 
anticipated that school groups, researchers, and traditional visitors 
will use the museum.
    Area 2 includes 160 acres encompassing the hilltop where Colonel 
Franz Sigel began his bombardment of the Confederate encampment and his 
forces' route of approach to the Sharp stubble field. It also includes 
a portion of the historic Dixon farmstead that was used as a field 
hospital. The inclusion of the site would enhance interpretation of the 
impact of the battle on civilians who lived in the valley.
    Area 3 includes 150 acres encompassing the ridge that became known 
in the aftermath of the battle as Bloody Hill. Bloody Hill was the core 
combat area of the Battle of Wilson's Creek. It was an area of intense 
fighting involving thousands of troops. Casualty rates, particularly 
among Union forces, proportionately were among the highest seen during 
the entire war.
    Area 4 includes 200 acres encompassing the Guinn Farm, Moody's 
Spring, and the intersection of Telegraph and York Roads. The Guinn 
Farm was the site of a skirmish between a portion of Sigel's retreating 
forces and troops of the Missouri State Guard; a Union artillery piece 
was abandoned here. Moody's Spring provided a year-round water source 
for both Union and Confederate encampments during the Civil War. The 
Telegraph Road was critical as a means of linking transportation and 
communication with southwestern Missouri and St. Louis to the north and 
Arkansas and Fort Smith to the south. Colonel Sigel's troops also used 
both the Telegraph Road and the Little York Road during their retreat 
from the battle.
    Area 5 includes 25 acres encompassing the approach of the Union 
forces under General Nathaniel Lyon. The first shots of the battle were 
fired here when Lyon's advance troops clashed with southern foragers. 
The anticipated construction of a trail in this area would allow 
visitors to retrace General Lyon's route to encounter the battlefield 
as the main Union force did on the morning of August 10, 1861.
    Finally, Area 6 encompasses 60 acres including the rallying point 
for Louisiana and Arkansas forces that had retreated from the Ray 
cornfield after nearly overwhelming advancing Union infantry in the 
opening stages of the battle.
    Inclusion of these six areas would allow the National Park Service 
to more completely tell the story of the Civil War battle at Wilson's 
Creek while protecting the lands that played a prominent role in this 
encounter.
    Once this legislation passes, the National Park Service will work 
cooperatively and collaboratively with the landowners. An appraisal of 
the properties has not yet been done; however, the total land 
acquisition cost for the six areas is estimated at $6.15-$7.38 million, 
which includes the estimated $2.5-$3.0 million to acquire the museum 
collection. Area 1, the Sweeney property, is a high priority in the 
National Park Service's Midwest Regional Office's land acquisition 
ranking system.

                        ON S. 2397 AND H.R. 3706

    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on S. 
2397 and H.R. 3706, bills to adjust the boundary of the John Muir 
National Historic Site.
    The Department supports enactment of this legislation, which was 
submitted to Congress as an Administration proposal last year. Passage 
of the legislation would enable the National Park Service to fulfill 
one of the General Management Plan objectives for the park by 
facilitating construction of a visitor parking area. As explained later 
in the testimony, we recommend that the committee approve H.R. 3706 
rather than S. 2397.
    John Muir National Historic Site was established in 1964 by Public 
Law 88-547 in recognition of John Muir's efforts as a conservationist 
and a crusader for national parks and reservations. The site includes 
the home where John Muir lived from 1890 until his death in 1914, the 
historic Martinez adobe, Mt. Wanda, and the Muir grave site. Included 
in the 1988 boundary expansion (Public Law 100-563) that added Mt. 
Wanda to the park was a 3.3-acre parcel owned by the City of Martinez. 
Following passage of the legislation, the city donated the parcel to 
the National Park Service to be administered as part of the national 
historic site.
    At the time of the transfer, both city and National Park Service 
staff believed that the 3.3-acre parcel, located between the south side 
of Franklin Canyon Road and the Santa Fe Railroad line, encompassed all 
of the land between the street and the railroad line. However, in 1994, 
while surveying the area, the National Park Service discovered that a 
0.2-acre (9,500 square foot) tract abutting the south edge of the road 
had not been part of the parcel donated by the city. Furthermore, it 
was determined that no one was listed as the owner of the tract with 
the county tax assessor, that it lacked a tax assessor parcel number, 
and that no taxes had been collected or paid on the parcel since the 
1960's. All efforts to trace the ownership of the property have been 
unsuccessful.
    This 0.2-acre parcel is needed for a new 32-car/2-bus visitor 
parking area, as called for by the park's 1991 General Management Plan. 
The park's existing 17-space parking area regularly fills to capacity, 
causing visitor parking to overflow onto the adjoining neighborhood 
streets. The City of Martinez has sought the additional off-street 
visitor parking to respond to residents' concerns. Construction of the 
parking area is estimated to cost about $200,000, and funds from the 
National Park Service's Recreation Fee Demonstration Program (the 20 
percent fund for which non-fee-collecting parks are eligible) have been 
set aside for this purpose. Because of the steep terrain of the area, 
there are no suitable alternatives within the boundary for a parking 
lot that excludes this 0.2 acre tract. Work cannot proceed on the 
parking lot until the park acquires the tract.
    Despite the tiny size of this parcel, the National Park Service 
cannot use minor boundary adjustment authority under 16 U.S.C. 4601-9 
to add the property to the boundary. One of the criteria for use of 
that authority is that the National Park Service obtain written consent 
from the owner of the affected property. In this case, as mentioned 
previously, the owner cannot be located.
    Both S. 2397 and H.R. 3706 provide for adoption of a new boundary 
map that places the 0.2 acre parcel in question within the boundary of 
the John Muir National Historic Site, and both authorize the Secretary 
of the Interior to acquire the tract and administer it as part of the 
park. However, S. 2397 provides for acquisition only from a willing 
seller. Since the owner cannot be located, we anticipate acquiring 
title through condemnation, which S. 2397 would not allow. H.R. 3706 
does not include a ``willing seller'' provision and therefore would 
allow acquisition through condemnation. For that reason, we urge the 
committee to approve H.R. 3706, which was passed by the House on June 
21, rather than S. 2397.

                               ON S. 2374

    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on S. 2374. This bill would authorize a 
land exchange among the Chickasaw National Recreation Area, the 
Chickasaw Nation and the City of Sulphur, Oklahoma.
    The Department supports S. 2374 with amendments. The bill would 
authorize the Secretary of the Interior to exchange Federal land in a 
three-way agreement between the Chickasaw Nation, the National Park 
Service, and the City of Sulphur, Oklahoma. This bill would authorize 
the Secretary to convey approximately 29 acres of land owned by the 
National Park Service to the Chickasaw Nation in exchange for 
approximately 39 acres of land donated to the Chickasaw Nation by the 
City of Sulphur, Oklahoma; direct the Secretary to place the land 
conveyed to the Chickasaw Nation in trust for the benefit of the 
Chickasaw Nation; allow the Chickasaw Nation to construct a cultural 
center on the trust land; and protect the watershed and riparian 
resources of Chickasaw National Recreation Area.
    The Chickasaw Nation has expressed an interested in establishing a 
cultural center inside or adjacent to the park. The cultural center 
would include a performing arts theater, plaza area, administration/
cultural education center, visitor center, stickball field, village, 
agricultural field, amphitheater, and parking lots. In 2000, the NPS 
Intermountain Regional Director signed a letter of support to work with 
the Chickasaw Nation and the City of Sulphur to investigate the 
possibility of a land exchange to allow the construction of the 
cultural center on a site currently within the park's boundary, after 
that property has been exchanged for a site of equal value.
    This bill would provide the following benefits to the National Park 
Service, the Chickasaw Nation, and the City of Sulphur:

  <bullet> The NPS would enhance its ability to protect scenic values 
        and reduce potential land use encroachments on both the east 
        and west boundaries of the park through close cooperative 
        efforts with the Chickasaw Nation and the City of Sulphur. The 
        Chickasaw National Recreation Area, through a partnership with 
        the Chickasaw Nation, would meet its mandate to provide access 
        to the culture and history of the Chickasaw Nation, in a way 
        that allows the Nation to tell their story to the millions of 
        park visitors. The addition of Tract 102-26 to Chickasaw 
        National Recreation Area would help to protect Wilson Creek and 
        its drainage, a major tributary to Veterans Lake located within 
        current park boundaries.
  <bullet> The Chickasaw Nation would establish an important research, 
        education, and museum facility to document and extend 
        understanding of their culture to its members and visitors on 
        lands that hold significant historical connection to the 
        Chickasaw Nation.
  <bullet> The City of Sulphur and the surrounding Murray County 
        communities would contribute to the protection of land 
        resources within the county, while providing additional 
        economic development potential to the local economies.
  <bullet> Enactment of this bill would acknowledge and support the 
        long and vibrant partnership among the National Park Service, 
        the Chickasaw Nation, and the citizens of Oklahoma.

    Set aside as Sulphur Springs Reservation in 1902, Chickasaw 
National Recreation Area has gone through several expansions and name 
changes. The Chickasaw Nation, fearful that Seven Springs now 
``Pavilion Springs'' would end up in the hands of private developers, 
agreed to cede the springs to the Federal government. Amending the 
Treaty of Atoka of 1897, the Chickasaw and the Choctaw ceded a tract of 
640 acres containing the springs to the Federal government for $20 an 
acre. The government set aside the 640 acres as the Sulphur Springs 
Reservation in 1902. In 1904, 218 acres were added and Sulphur Springs 
Reservation was opened to the public. Renamed Platt National Park in 
1906 in honor of Senator Orville H. Platt of Connecticut, it carried 
that name for the next 70 years.
    In the mid 1960's, a series of events occurred including the 
construction of Arbuckle Dam and Lake, the formation and management of 
the Arbuckle Recreation Area by the NPS, and the addition of land along 
Rock Creek to connect the recreation area to Platt National Park. In 
1976, Platt National Park, the Arbuckle Recreation Area, and additional 
lands were combined and renamed Chickasaw National Recreation Area to 
protect and expand water and other resources, to memorialize the 
history and culture of the Chickasaw Nation, and to provide for public 
outdoor recreation.
    From prehistoric times to the present, access to the combination of 
cool water, mineral springs, cool breezes, shade, and wildlife has 
created at Chickasaw National Recreation Area an experience that sets 
it apart from the surrounding environment. The springs and streams of 
Chickasaw come from a complex geological and hydrological feature and 
these resources have been economically and environmentally significant 
throughout the history of the region, and are valuable for scientific 
research.
    The park holds a vast diversity of natural resources. These unique 
flora, fauna, waters, and geological formations have withstood the 
external pressures of man made and natural changes.
    The Secretary, the Chickasaw Nation and the City have completed all 
required environmental compliance and have signed a preliminary 
agreement to effect the land exchange to allow the construction of a 
cultural center. The value of the federal land and non-federal land is 
approximately equal, as determined by the Secretary through an 
appraisal performed by a qualified appraiser and in conformance with 
the Uniform Appraisal Standards for Federal Land Acquisitions. Through 
the signed preliminary agreement, the Chickasaw Nation has agreed to 
bear all costs associated with this transfer, including environmental 
surveys, appraisals, boundary surveys, title examinations, and closing 
costs.
    The land to be conveyed to the Chickasaw Nation holds significant 
historical and cultural connections for the people of the Nation, and 
the proposed use by the Nation is consistent with protecting park 
values.
    The Department proposes two amendments following this statement. 
First, we are concerned that the bill does not specify what duties and 
responsibilities are required of the Secretary in taking the land into 
trust. The Department has devoted a great deal of time to trust reform 
discussions. The nature of the trust relationship is now often the 
subject of litigation, and much of the current controversy over trust 
stems from the failure to have clear guidance as to the parameters, 
roles and responsibilities of the trustee and the beneficiary. As 
Trustee, the Secretary may face a variety of issues, including land use 
and zoning issues. Accordingly, the Secretary's trust responsibility to 
manage the land should be addressed with clarity and precision.
    The Department has an established regulatory process for taking 
land into trust that would provide such clarification. Before land is 
taken into trust through this process, the Secretary considers 
important issues such as the use of the land and the potential impact 
upon the relationship between the tribe and local residents. If 
Congress directs the Secretary to take land into trust, as it does in 
the bill, we feel that Congress should provide the guideposts for 
defining what that relationship means. Both the Executive Branch and 
the Judicial Branch are faced with the question of what exactly does 
Congress intend when it puts land into trust status. Congress should 
decide these issues, not the courts.
    Therefore, we recommend the Committee set forth in the bill the 
specific trust duties it wishes the United States to assume with 
respect to the acquisition of these lands for the Chickasaw. For 
example, the bill should be more specific about the use of the trust 
property. We understand that the Chickasaw Nation, the State of 
Oklahoma, the City of Sulfur and the National Park Service have worked 
to address some of these issues, including the use of the trust land. 
An amendment that in part reflects this agreement is provided at the 
end of this testimony. The benefits of either the regulatory approach 
or Congress providing more specific direction concerning the 
Secretary's trust duties are that it would clearly establish the 
beneficiary's expectations, clearly define the roles and 
responsibilities of each party, and establish how certain services are 
provided to tribal members.
    Second, we would like to clarify that the boundary of Chickasaw 
National Recreation Area will be adjusted to reflect the exchange of 
the two parcels.

                          PROPOSED AMENDMENTS

    Page 5, line 6 strike ``to allow the construction of a cultural 
center and to protect'' and insert ``for the exclusive purposes of 
constructing and operating a tribal cultural center to interpret the 
culture and history of the Chickasaw Nation and for protecting''.
    Page 6, line 8 strike all after ``Boundary Revision.--'' and insert 
``Upon completion of the conveyance of the non-Federal land to the 
Secretary pursuant to this Act, the Secretary shall revise the boundary 
of Chickasaw National Recreation Area to reflect the exchange with the 
Chickasaw Nation.''.

                              ON H.R. 1113

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present the Department's views on H.R. 1113. This bill 
would authorize an exchange of land at Fort Frederica National 
Monument.
    The Department supports an exchange of land between Christ Church, 
Frederica and Fort Frederica National Monument, as outlined in H.R. 
1113. Although appraisals have not been completed for the two parcels, 
we expect that the value of the land received by the National Park 
Service (NPS) will be more than the value of the land given up so there 
will be no need for land acquisition funding. The NPS would incur 
increased operational costs associated with the exchange because of the 
archeological value to the park of the acquired lands. However, the 
amount of those costs cannot be determined until the significance of 
the resources present on the site NPS acquires is established.
    The Department testified in support of this bill at a House 
Subcommittee on National Parks, Recreation, and Public Lands hearing on 
April 8, 2003. At the House markup the bill was amended to adjust the 
amount of land to be given by the NPS to Christ Church from 4.8 acres 
to 6 acres in order to provide sufficient land for the church to 
complete their development project. As a part of this process, the NPS 
worked closely with Representative Kingston's office to assure that the 
historic scene of the National Monument will be protected and that the 
park's artifact storage facility and other buildings would remain 
within the park boundary.
    H.R. 1113 would authorize the Secretary to convey to Christ Church, 
Frederica, located on St. Simons Island, Georgia approximately 6 acres 
of land within the boundary of Fort Frederica National Monument in 
exchange for approximately 8.7 acres of land near Fort Frederica that 
will be acquired by Christ Church. Upon completion of the exchange, the 
Secretary shall revise the boundary of Fort Frederica National Monument 
and administer the land acquired through the exchange as part of the 
monument.
    Fort Frederica National Monument is located 12 miles northeast of 
Brunswick on St. Simons Island, Georgia. The monument's authorized 
boundary contains 250 acres and preserves the remains of a fortified 
town established and laid out by Governor James Oglethorpe in 1736 to 
defend against invasion from Spanish colonies in Florida.
    Fort Frederica was one of the earliest English settlements in what 
ultimately became the State of Georgia, preceded by Fort King George 
(1721), located near Darien, Georgia, and the Cities of Savannah (1733) 
and Augusta (1735), also established and planned by Oglethorpe. Fort 
Frederica was a prosperous community of substantial homes whose 
residents were tradesmen and farmers supplying the garrison stationed 
there much the same way communities provide goods and services to 
military installations today. In 1739, Britain and Spain entered a war 
that eventually involved Fort Frederica. After the 1748 treaty, 
Frederica's military garrison was withdrawn and the town of Fort 
Frederica fell into decline. In 1758, a fire destroyed most of the 
existing structures.
    Fort Frederica National Monument was established on May 26, 1936. 
Subsequent legislation increased the authorized boundary to 250 acres 
and directed the Secretary of the Interior to acquire the Battle of 
Bloody Marsh memorial site on St. Simons Island. Subject to the 250-
acre limitation, the Secretary was also authorized to acquire 
additional marshland acreage west of the Frederica River, across from 
the National Monument, for additional protection of the historic scene.
    On June 29, 1993, following a lengthy campaign involving the 
efforts and support of the Trust for Public Land and many private 
citizens of St. Simons Island, Fort Frederica acquired 28 acres of 
land, including river frontage on the south side of the town site, that 
had been planned for a major marina development. This acquisition 
preserved the historic view of the river approach to Fort Frederica. 
The 6-acre parcel that H.R. 1113 directs the Secretary to give to 
Christ Church is within this 28-acre acquisition.
    The 8.7-acre site that Christ Church proposes to exchange for the 
land at Fort Frederica contains archeological remains that have been 
established to be from the colonial period. Tradition indicates that 
the land includes General Ogelthorpe's home, however we are unaware of 
any archeological survey work that has been completed on this tract to 
positively determine if this is the case.
    The main town site within the National Monument contains several 
well preserved and partially reconstructed colonial ruins. There may be 
additional administrative and operational costs associated with 
protecting a small archeological site detached from the main park unit 
and it has not been determined if that cost is commensurate with the 
limited additional interpretive value of the site if it only contains 
additional Frederica era resources but does not include Oglethorpe's 
home.

                                S. 2567

    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on S. 
2567, a bill to adjust the boundary of Redwood National Park in the 
State of California.
    The Department supports enactment of S. 2567. This legislation 
would enable the National Park Service and the California Department of 
Parks and Recreation to manage a large swath of state-owned redwood 
forest land, known as the Mill Creek property, under the same terms 
that state park lands currently within the boundary of Redwood National 
Park are managed. It would thus provide for more efficient and cost-
effective management and protection of a very ecologically important 
resource in the coastal redwood region of northern California. There 
would be no Federal costs for land acquisition or development resulting 
from this legislation, and only negligible operation and maintenance 
costs.
    S. 2567 would revise the boundary of Redwood National Park and 
increase the park's acreage limitation from 106,000 acres to 133,000 
acres to accommodate the addition of the 25,500-acre Mill Creek 
property and about 900 acres of state park lands that have been 
acquired since the last park boundary adjustment was enacted in 1978. 
The Mill Creek property consists of the watersheds of Mill Creek and 
Rock Creek, tributaries to the Smith River, and is contiguous to the 
Redwood National Park boundary. This property has been studied and 
proposed for park status since the early 1900's, most recently in the 
1960's as the heart of an early proposal to establish Redwood National 
Park. Coast redwoods comprise almost 95 percent of the forest type on 
the property. The land includes about 121 acres of ancient redwood 
forest, and contains 23 species that are endangered, threatened, or of 
special concern. Mill Creek supports the most significant run of Coho 
salmon in the entire Smith River watershed and has been identified as 
critical to the recovery of the species.
    The Mill Creek property was purchased by the Save-the-Redwoods 
League for $60 million from the Stimson Lumber Company, which was 
phasing out logging operations on the property and wanted to sell the 
land. Funding for the purchase came from a variety of state and private 
sources. The land became part of the California state park system in 
June, 2002, and is being managed under an interim plan pending action 
by Congress to add the property to Redwood National Park.
    If the Mill Creek property is included within the boundary of 
Redwood National Park, it will be managed under the same cooperative 
management agreement that the National Park Service and the California 
Department of Parks and Recreation currently use to manage the National 
Park Service property and the three state parks within the boundary. 
The joint Federal-state management arrangement at Redwood is unusual 
within the National Park System, but has come to serve as a model of 
interagency cooperative management efforts.
    The Federal-state management arrangement at Redwood stems from the 
origins of the park. The 1968 legislation that established Redwood 
National Park and the 1978 legislation that expanded it included three 
existing state parks within the boundary in anticipation of eventual 
conveyance from the state to the National Park Service. For a variety 
of reasons, that conveyance did not occur. The state parks currently 
own about 32 percent of the land within the Redwood National Park 
boundary, and about half the acreage of the ancient redwood forest in 
the park. In the 1990's, after years of experiencing duplication of 
efforts and management conflicts, the National Park Service and the 
California Department of Parks and Recreation established a framework 
for cooperative management of the Federal and state parks. Congress 
facilitated this effort by providing authority for the National Park 
Service to enter into a cooperative management agreement for the 
Redwood parks with the state agency--and, incidentally, has since 
extended that authority to all units of the National Park System due in 
large part to the success of the arrangement at Redwood.
    The Federal-state cooperative management agreement at Redwood 
National Park allows the two park agencies to operate the entire 
105,000-acre area in a unified manner. In a reflection of that unity, 
while ``Redwood National Park'' remains the legal name for the park, 
the name of the site that is used for public information purposes is 
``Redwood National and State Parks.'' The management decisions of both 
agencies are guided by a joint General Management Plan, adopted in 
2000. The two agencies share staff, equipment, and facilities to 
fulfill common resource protection and visitor service goals. They 
develop common procedures for activities such as issuing special use 
permits, and common programs for park operations such as staff training 
and media relations. They develop and implement schedules so that the 
two agencies cover for each other and avoid duplication. Both agencies 
benefit from efficiencies in the areas of law enforcement, 
interpretation, administration, resource management and maintenance. 
Facilities and space on the new parcel will increase these efficiencies 
by providing centralized staging areas, storage space and offices for 
these joint operations.
    Adding the Mill Creek property to the boundary of Redwood National 
Park, as S. 2567 would do, would enable the National Park Service and 
the California Department of Parks and Recreation to extend all the 
benefits of the cooperative management agreement to that property, as 
well. The result would be the more efficient and effective management 
and protection of land that provides a critically important 
contribution to the ecological values that the National Park Service 
protects at Redwood National Park.
    Mr. Chairman, that concludes my statement. I would be happy to 
answer any questions you or other members of the subcommittee may have.

    Senator Thomas. Thank you very much. Your testimony will be 
included in the record.
    Redwood Park that you just mentioned is kind of a 
conglomeration of State, city, and national park units. Is that 
not right?
    Mr. Jones. That is correct, Senator.
    Senator Thomas. Or lands, rather.
    Mr. Jones. That is correct, Senator. In the truest sense, 
it is a partnership between the National Park Service and the 
State of California. There are three separate State parks, and 
the State park employees and the National Park Service 
employees work as a team and share resources and share expenses 
for the operation of the area as a whole.
    Senator Thomas. Is this going to be a cost-saving change 
for the National Park Service?
    Mr. Jones. In some regards, we think it is because it would 
allow this particular block of land to be considered in the 
same context as all of the other existing State blocks of land 
and not have to be treated in a different form or in a 
different manner. So it provides consistency so that everything 
can be operated under one document and one agreement.
    Senator Thomas. Back to the Benjamin Franklin Memorial. 
What is your priority there? You had something you wanted to 
work on rather than what is suggested here in the bill. Is that 
correct?
    Mr. Jones. That is correct, Senator. We do have a section 
of Independence National Historical Park dedicated to the 
history of Benjamin Franklin. That is a site that does need 
work and investment to improve our interpretation and our 
facilities there. We think that should be our top priority for 
our existing funds.
    In the context of history, while the Franklin Memorial is 
an affiliated unit of the National Park System, not a full 
unit, citing back to the 1970's when Congress passed the 
legislation, the committee report language at that time 
specifically said in establishing the area as an affiliated 
area that it was under the assumption that the private sector 
would continue to fund and operate the area and not the 
National Park Service.
    Senator Thomas. This heritage trail route. What type of a 
unit is that with respect to the Park Service?
    Mr. Jones. It was a piece of legislation that passed in and 
of itself. It is sort of a marriage of an affiliated unit with 
the heritage area concept. That is one of those things, as we 
have discussed before at other hearings, the whole evolution of 
the heritage area concept, which is probably what this is most 
analogous to.
    A lot of excellent work has been done, working with the 
State. They have established a series of welcome or visitor 
centers in the area. They have developed a series of 
publications. Work is well underway and I think we have made 
very good progress. There is no doubt of the significance of 
this area from a variety of points of view because there are 
National Park System units in the area. There are also a series 
of national wildlife refuges in the area because it is a very 
important area for migratory birds, as well as beautiful 
beaches. So we have a continuing role, and the purpose of this 
bill is really just to allow us to finish our work so that the 
area can graduate and move on on its own in a few years.
    Senator Thomas. There is no authority there for land 
acquisition or control of private lands surrounding or those 
kinds of things?
    Mr. Jones. No, sir, there is not.
    The one concern we do have on that bill is the authority to 
create new grant-making authority to local entities. We feel 
that there are already existing authorities that could be used, 
for example, the State-side Land and Water Conservation Fund in 
cooperation with the State, the Save America's Treasures 
program, and other programs that we feel provide existing 
authority that is adequate to any of those needs, rather than 
creating new grant-making authority to this area. So we would 
prefer not to see that in the bill.
    Senator Thomas. Senator Talent, I will get right back to 
you. I will let the Senator ask questions.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Mr. Jones, I would like to ask a couple of questions about 
H.R. 1113, the land exchange at Fort Frederica National 
Monument in Georgia. As I understand your testimony, the lands 
to be conveyed to Christ Church were acquired by the Park 
Service in 1993. If these lands were important enough to add to 
the park 11 years ago, why do you now support transferring them 
out of the park?
    And second, was this exchange initiated by the Park Service 
or by the church?
    Mr. Jones. The lands that we are proposing and agree could 
go to the church were part of a larger tract. Our purpose and 
interest in the original acquisition of this tract was for the 
values on the rest of the tract--I believe it was somewhere 
between 26 and 30 acres in size. Being part of the larger 
tract, it is the other values that were of significance to the 
park. The lands that would go to the church are directly 
adjacent to the park's maintenance facility and other developed 
facilities. Therefore, we feel this is a use that can be 
compatible with the park purposes, especially since the lands 
that they are now proposing to exchange with us definitely do 
have significant resources and value that add to the purposes 
of the park.
    The second question. It is my understanding that the 
initial discussions were initiated by the church. They made an 
original proposal to us that we did not support and said we 
would not support. They then, over a period of time, came up 
with this new proposal that we have been working with them on 
that would add significant resources to the park. So that is 
why we feel we are in a position to support it today.
    Senator Akaka. Thank you.
    My other question is on S. 2567, the Redwood National Park. 
According to your testimony, the State of California owns 32 
percent of the land in Redwood National and State Park. What is 
the relative funding contribution of the National Park Service 
and the State of California's Department of Parks and 
Recreation for the management of the combined Redwood National 
and State Park?
    Mr. Jones. Senator, I have to apologize and say I would be 
happy to supply that to you for the record. I do not know those 
numbers off the top of my head. But both the State and the 
National Park Service do put significant resources into the 
area and we feel we have an excellent team relationship with 
the State in managing this resource for the public.
    Senator Akaka. From what I have seen of the map, it looks 
as though it is a good move.
    So thank you very much, Mr. Chairman.
    Senator Thomas. Thank you.
    Senator Talent.

        STATEMENT OF HON. JAMES M. TALENT, U.S. SENATOR 
                         FROM MISSOURI

    Senator Talent. Mr. Chairman, I have no questions. I just 
want to thank you for scheduling the hearing on S. 2432, you 
and the ranking member, and also Mr. Jones and the 
administration for their support. This is the Wilson's Creek 
National Battlefield bill.
    Just for the record--and I will not go through the whole 
opening statement, although I would like to submit it for the 
record, Mr. Chairman--this was a very significant early battle 
in the Civil War, the first major battle west of the 
Mississippi. It was in August 1861. General Nathaniel Lyon 
tried to drive the Confederates entirely out of the State of 
Missouri. He was unable to do it. But they fought a big battle 
with 2,300 casualties. It was inconclusive but it was very 
important in terms of the history of the war.
    It is a great battlefield, a very pristine one. We do need 
to expand it a little bit because of the pressure that we are 
getting from the urban growth out of the city of Springfield, 
which is growing very rapidly. So we are working with the 
administration, and we are going to try to acquire at least 
initially Sweeney's Museum, which is one of the biggest private 
Civil War collections in the country, and add it to the 
Wilson's Creek National Battlefield.
    I sure appreciate your holding this hearing and would 
appreciate being able to move the bill as quickly as we can. So 
thanks for your consideration. And I will put the rest of my 
statement in the record, if that is OK.
    Senator Thomas. It will be in the record. Thank you.
    [The prepared statement of Senator Talent follows:]

       Prepared Statement of Hon. James M. Talent, U.S. Senator 
                             From Missouri

                WILSON'S CREEK BATTLEFIELD BOUNDARY BILL

    Mr. Chairman, thank you for holding this hearing today and thank 
you for including S. 2432, to expand the boundaries of Wilson's Creek 
National Battlefield in Southwest Missouri.
    The battle at Wilson's Creek was one of the bloodiest battles early 
in the Civil War and the battleground and buildings of historic 
significance should be protected and preserved.
    As states seceded from the Union in 1860-61, Missouri attempted to 
maintain neutrality. However, with a pro-southern governor and a pro-
Union legislature, Missouri was destined to fight a civil war within 
the very state itself.
    All hope of neutrality ended in July 1861 when a peace conference 
between Governor Jackson and Union Brigadier General Nathaniel Lyon 
failed, with Lyon declaring that he would rather ``the blood of every 
man, woman and child within the limits of the State should flow, than 
she should defy the Federal Government. This means war!''
    After forming an army, General Lyon drove the pro-Confederate 
Missouri State Guard under Major General Sterling Price into the south-
west of the state, where he prepared to finish them off. He was 
ultimately unsuccessful in his endeavor, as the Confederate Army won 
the battle at Wilson's Creek.
    The battle fought at Wilson's Creek on August 10, 1861, was the 
first major Civil War engagement west of the Mississippi River, 
involving about 5,400 Union troops and 12,000 Confederates. Although a 
Confederate victory, the Southerners failed to capitalize on their 
success and the battle led to greater federal military activity in 
Missouri. Wilson's Creek was also the scene of the death of General 
Lyon, the first Union general to be killed in combat.
    Although a minor engagement, this was one of the most fiercely-
contested of the war. The Federals were outnumbered more than 2 to 1. 
They lost 1,235 (223 killed, 721 wounded, 291 missing) while inflicting 
on the Confederates a loss of 1,184 (257 killed, 900 wounded, 27 
missing). They killed or wounded 214 Confederates for every 1,000 of 
their own troops engaged, whereas the Confederates inflicted only 81 
casualties on the same basis.
    Currently, Wilson's Creek National Battlefield is ranked among the 
most pristine Civil War battlefields in the country. But that does not 
make it immune from the pressure of the Springfield's urban sprawl. 
Recently, it was placed on the Civil War Preservation Trust's list of 
at-risk battlefields. The Springfield area is one of the fastest 
growing communities in the nation. If this piece of American history is 
going to be preserved, we must to act quickly and I appreciate the 
Administration's support in this endeavor.
    Additionally, my legislation also authorizes the acquisition of the 
Sweeney museum; a private museum that houses one of the best privately 
owned Civil War collections in the United States. The collection 
includes thousands of artifacts and numerous archives related to the 
Battle of Wilson's Creek and the Civil War in the region. Acquisition 
of the entire Sweeney Archives & Collections is essential to enhance 
visitors' interpretation and experience of the park.
    The full story of the battle should be preserved for generations to 
come, not buried under the Springfield suburbs. I appreciate it being 
included in this hearing and I look forward to working with the 
Chairman to have this legislation approved by the full committee.

    Senator Thomas. A couple of other quick ones. The Chickasaw 
land conveyed to the Chickasaw Nation will be the site of their 
national cultural center. What is the role of the national park 
in that?
    Mr. Jones. The area would be the tribe's. They would 
operate it. We would not have operational expenses involved in 
it. We have talked to them and we are willing to cooperate with 
them as far as advice and ideas so that our experiences in the 
world of visitation--we would be happy to give them advice in 
that area.
    Senator Thomas. Advice is inexpensive then. Is that right?
    Mr. Jones. That is correct, Senator.
    [Laughter.]
    Senator Thomas. On this Wilson's Creek, the bill is titled 
Wilson's Creek Battlefield National Park. You referred to it as 
Wilson's Creek National Battlefield. Which is it?
    Mr. Jones. You have got me, Senator.
    Senator Talent. I think it is Wilson's Creek National 
Battlefield.
    Mr. Jones. I believe it is too.
    Senator Thomas. Very good.
    Any other questions?
    Senator Akaka. No.
    Senator Thomas. We will let you off the hook.
    Mr. Jones. Thank you very much. As always, it is a pleasure 
to be here.
    Senator Thomas. Thank you, sir.
    Now we would like to have our panel 2: the Honorable Mack 
Mattingly, former U.S. Senator from Georgia, and Mr. Charles 
Blackwell, Chickasaw Nation Ambassador to the United States 
here in Washington.
    Welcome, Senator. Nice to have you here, sir.

             STATEMENT OF HON. MACK F. MATTINGLY, 
           FORMER U.S. SENATOR, ST. SIMONS ISLAND, GA

    Mr. Mattingly. Mr. Chairman, Senator Akaka, Senator Talent, 
I have a statement that I would like to make and we will get 
back to the Civil War in Missouri when we get to the Oglethorpe 
site, which is even older.
    But it is a pleasure to be here to testify on H.R. 1113. As 
a member of Christ Church, Frederica, it has been my task for 
the last 2 \1/2\ years in trying to obtain a land exchange 
between Fort Frederica and the church that would benefit both 
parties. This effort, as has been stated, was started several 
years ago, but with the assistance of Congressman Kingston that 
he and I started in March 2002, he arrived at a solution with 
H.R. 1113. And together with Senators Miller and Chambliss, I 
believe that we can culminate this effort this year.
    Christ Church has agreed with the Sea Island Company of Sea 
Island, Georgia, which was, I might add, the host of the G-8 
summit which just recently completed, to exchange 
approximately--we were taking our Christ Church property of 
approximately 23 acres that belongs to Christ Church and 
trading that for 8.7 acres of land Sea Island owns that is 
noted as the ``Oglethorpe site.'' We would now want to exchange 
that site of 8.7 acres for 6.0 acres of Fort Frederica as 
designated by the surveys that have been submitted to you. The 
land that we are exchanging to Sea Island will be usable land 
for them, whereas the land that we are getting from Sea Island 
would not be because of its historical value.
    Christ Church has doubled in size in the last 9 years and 
the additional land is needed for its expansion. The 6 acres 
that is adjacent to Christ Church owned by Fort Frederica 
National Monument does not detract from the National Monument 
site and is a perfect site for the church. But in addition this 
8.7 acres that Fort Frederica will acquire is not only larger, 
but is a historical site that is contiguous to the monument and 
is no doubt of great value.
    James Oglethorpe, as many have stated, briefly occupied 
this 8.7 acres as his homestead. Preservation of such sites, as 
they are non-renewable resources, should be protected by the 
Park Service from damage and destruction and also preserved for 
future scientists and the public. In fact, as has already been 
quoted, a December 23, 2002 letter from the U.S. Department of 
the Interior is significant in that they do support this land 
exchange. The Oglethorpe site sits on around 300 acres with 
probably about 50 acres of it high ground and the balance was 
marsh. This site has great significant potential and deserves 
to be protected and nominated for inclusion in the National 
Record of Historic Places. Public access and damage to the site 
should be reduced by deeding it to the Federal Government.
    I want to thank you for your time and attention to this 
matter. As you know, this bill passed the House of 
Representatives with no objection. Hopefully it could pass 
intact with the same wording that they passed, which is what 
this bill is. Hopefully it can pass out this year.
    Mr. Chairman, I appreciate your and the ranking member's 
attention to this matter.
    To Senator Talent, I would say that General Oglethorpe came 
and created the colony of Georgia before there was a United 
States. So we go way back.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Mattingly follows:]
  Prepared Statement of Mack F. Mattingly, Former U.S. Senator (R) GA
    Mr. Chairman, it is a pleasure to be here today to testify in 
regards to H.R. 1113. As a member of Christ Church, Frederica it has 
been my task to assist our church in trying to obtain a land exchange 
between Fort Frederica and the church that would benefit both parties. 
This effort was started several years ago, but with the assistance of 
Congressman Kingston that he and I started in March, 2002, he arrived 
at a solution with H.R. 1113. And together with Senator Chambliss and 
Miller, we can culminate the effort this year.
    Christ Church has agreed with the Sea Island Co. of Sea Island, 
Georgia(host of the recent successful G-8 Summit) to exchange 
approximately 23.124 acres of land that belongs to Christ Church for 
8.69 acres of land Sea Island owns, that is noted as the Oglethorpe 
site. We now want to exchange the General Oglethorpe site of 8.69 acres 
designated by Shupe Surveying Co., PPC dated 9/19/00 for 6.0 acres of 
land of Ft. Frederica, as designated by Shupe Surveying Co., dated 12/
20/99. The land we exchange to Sea Island will be usable land for them, 
whereas the land we receive from Sea Island would not be because of its 
historical value.
    Christ Church has doubled in size in the last nine years and the 
additional land is needed for its expansion. The 6.0 acres that is 
adjacent to Christ Church owned by Ft. Frederica National Monument does 
not detract from the National Monument and is a perfect site for the 
church, but in addition the 8.69 acres that Fort Frederica will acquire 
is not only larger, but is a historical site that is contiguous to the 
monument and is no doubt of great value.
    James Oglethorpe as many have stated, briefly occupied this 8.69 
acres as his homestead. Preservation of such sites, as they are non-
renewable resources, should be protected by the Park Service from 
damage and destruction and also preserved for future scientists and the 
public. In fact, a December 23, 2002 letter from the U.S. Department of 
the Interior is significant in that they support this land exchange. 
The Oglethorpe site was on around 300 acres with probably only 50 acres 
of high ground and the balance marsh. This site has great scientific 
potential and deserves to be protected and nominated for inclusion in 
the National Record of Historic Places. Public access and damage to the 
site should be reduced by deeding it to the federal government.
    Thank you for your time and attention to this testimony Mr. 
Chairman. ,

    Senator Thomas. Thank you.
    Mr. Mattingly. Do you have any questions?
    Senator Thomas. Just a question before we go to the other. 
The land considered for the transfer here was acquired by the 
National Park Service in 1993 to protect the river viewshed. So 
how does the church plan to use this land that it acquires, and 
will that protect the viewshed and so on?
    Mr. Mattingly. It does protect it, and the use of the land 
will be for a new church in the future.
    Senator Thomas. Any questions, Senator?
    Senator Akaka. No.
    Senator Talent. Senator Talent?
    Senator Talent. No.
    Senator Thomas. Mr. Blackwell, please.

           STATEMENT OF CHARLES W. BLACKWELL, ESQ., 
        CHICKASAW NATION AMBASSADOR TO THE UNITED STATES

    Mr. Blackwell. Thank you, Mr. Chairman, on behalf of 
Governor Bill Anoatubby of the Chickasaw Nation and my fellow 
40,000 Chickasaw citizens. We have written testimony that I 
would submit to the record and I have a few remarks I would 
like to have in the record as well.
    I am accompanied here today and would like the chair's 
permission to introduce Mr. Donald Day who is the former mayor 
of the city of Sulphur and presently on the city council of 
Sulphur, but most importantly on this project, he has been 
working on this with the tribe and for the city and with the 
National Park Service for over 15 years. I would request the 
chair's permission having Mr. Day, on behalf of the city of 
Sulphur, be given the opportunity to submit written statements 
after today's hearing.
    Senator Thomas. Without objection, we will do that.
    Mr. Blackwell. I have served as the Chickasaw Nation envoy 
to Washington for almost 15 years, and activities just such as 
this, not only for the Chickasaw Nation but for tribes all over 
the country, and the communities surrounding the tribal 
communities, the cities, and the States, this is an excellent 
example of what good, solid cooperation can produce.
    I find it refreshing, in the historical context of this 
action, to have the gentleman from the National Park Service 
asking the tribe to inform them about the trust stewardship.
    To put it in historical context, after the removal of the 
Chickasaw Nation and its people from Mississippi, Alabama, and 
Illinois to a considerably smaller place in Oklahoma, what was 
then Indian territory, we found a spot that became the natural 
spiritual center, geographical spiritual center of the tribe in 
Indian territory in the new Chickasaw Nation. We immediately 
put up the barriers of protection, which is what we see the 
basic tenets of the Federal trust relationship to be. With the 
coming dissolution in 1902 of the Chickasaw Nation because 
Oklahoma statehood was looming on the horizon, out of respect 
for this site, the Chickasaw Nation prevailed on the Federal 
Government to take the site into trust and protect it for 
eternity because of its cultural, social, and spiritual 
significance to us. Now 100 years later, we are involved in a 
land exchange that returns some of that land to the overview of 
the tribe for a cultural center which is exactly for that 
purpose.
    The National Park Service has been wonderfully cooperative 
working with the tribe and the city of Sulphur. As I say, I 
find it refreshing for us to be in the position to do what we 
have always done, which is explain to those who have come after 
us how important some of these places are and how they have to 
be respected and protected. And that is what the National Park 
Service does with the National Park System all over the United 
States.
    The only other point I would make is Governor Anoatubby has 
asked that I prevail upon you, Mr. Chairman, and the committee 
and Senator Akaka to please approach this with all due speed. 
It has been 15 years in the making and it is important. On the 
business side of it, timing is important.
    The Chickasaw Nation is bearing all the financial 
responsibility for this. No burden to the Federal Government or 
to the city of Sulphur. The city of Sulphur has been more than 
gracious in the process.
    We request your attention for an expeditious consideration. 
Thank you for being here and we appreciate your time and 
attention.
    [The prepared statement of Mr. Blackwell follows:]

  Prepared Statement of Charles W. Blackwell, Esq., Ambassador to the 
     United States of America From The Chickasaw Nation, on S. 2374

    Mr. Chairman and Members of the Committee: On behalf of Governor 
Anoatubby and my fellow citizens of The Chickasaw Nation, I appreciate 
the opportunity to appear before you today to convey our support for S. 
2374 which provides for the conveyance of certain land to the United 
States to be held in trust for the Chickasaw Nation and to revise the 
boundary of Chickasaw National Recreation Area in Oklahoma.
    The Indian Removal Act of 1830 forced us, the Chickasaw Nation to 
sell all twenty two million plus acres of our tribal lands east of the 
Mississippi River beginning in 1837 and to remove its citizens to lands 
west of the Mississippi River in Indian Territory (present day 
Oklahoma). The Tribe reestablished its government in 1856 by written 
constitution assuming sovereign jurisdiction over six million acres, 
the exterior boundaries of which now include all or parts of 13 
counties in south-central Oklahoma. The subject land lies within the 
original exterior boundaries of the lands held in trust for the 
Chickasaw Nation by the federal government in Indian Territory.
    The Chickasaw people are stewards of the land and have always 
religiously protected our natural environment. After the Removal to 
Indian Territory, Chickasaw leaders sought out special places in our 
new lands where culturally significant and other important Chickasaw 
ceremonies and rituals could be continued. Immediately, the water 
springs which now comprise the Chickasaw National Recreation Area and 
the surrounding environs were identified as a culturally significant 
place. Sulphur Springs, as it came to be called, was identified by the 
Chickasaw people and our tribal government as a culturally significant 
special place to be treated with reverence and deep respect.
    In 1902, with fear of the commercialization of the Springs and with 
the pending dissolution of Indian Territory, of Chickasaw government 
regulation and control of tribal affairs and lands, the Chickasaw 
Nation government granted the land at Sulphur Springs to the United 
States government to hold, preserve and protect in perpetuity. It was 
then that the United States assumed trust responsibility from The 
Chickasaw Nation for the protection and preservation of Sulphur 
Springs. Soon the land and springs were designated as Platt National 
Park with free public access and use of the springs, which has 
continued to this day. Platt National Park was renamed the Chickasaw 
National Recreation Area (CNRA) in 1976.
    About 1987, the Chickasaw Nation first expressed interest in 
establishing a cultural center inside or adjacent to the Chickasaw 
National Recreation Area. With full understanding that the National 
Park Service could not give CNRA public land directly to the Chickasaw 
Nation but could, indeed, exchange for land of equal value and use, the 
National Park Service identified a piece of property owned by the City 
of Sulphur as potential exchangeable property. The City of Sulphur, 
being most supportive and interested in having the Chickasaw Nation 
Cultural Center located nearby, offered to donate the property to the 
Chickasaw Nation for the exchange. This cooperative effort demonstrates 
how mutual respect, mutual understanding and open, honest communication 
can produce mutually beneficial results between local governments, the 
Federal government and as American Indian Tribal government. I must 
note from direct observation, that Governor Anoatubby's vision and 
sustained leadership enhanced by hard work by Gerard Baker, former CNRA 
Superintendent (now at Mt. Rushmore), and Mr. Donald Day, former 
Sulphur City mayor, has made the Chickasaw Nation Cultural Center a 
reality.
    Today, the Chickasaw Nation is joined not only by the National Park 
Service and the City of Sulphur, but also by many other local 
communities and organizations with the mutual goal of creating a center 
for Chickasaw tribal culture and history for the three million annual 
visitors to the park thereby creating an attraction predicted to 
increase the visitors to 4.5 million in the first year of operation 
alone. It is this cooperative spirit and communal effort which has led 
us to the partnership which supports the exchange of the land to be 
used as a site for the Chickasaw Nation Cultural Center.
    Quick consideration, and we hope approval by the Senate Committee 
on Energy and Natural Resources, of this land exchange is the first 
step in moving forward with this exciting and important project. This 
will allow the Chickasaw Nation to build a cultural center to recognize 
and commemorate its historic and cultural heritage as well as play an 
on-going role in the economic and cultural well-being of southern 
Oklahoma. Thank you for your consideration of S. 2374.

    Senator Thomas. All right. Thank you, sir.
    The Park Service is to convey this site in trust to the 
Chickasaw Nation. It will be a trust then. Is that correct?
    Mr. Blackwell. Well, I think maybe I will take off my 
tribal diplomat's hat and put on the old lawyer's hat. I think 
maybe there is some confusion about the language. It is my 
understanding--correct me if I am wrong--that the land is right 
now in trust. It is in the Federal trust. It will stay in 
trust. The Federal Government will hold it in trust for the 
Chickasaw Nation to use for a cultural center.
    Senator Thomas. And exchange land of equal value.
    Mr. Blackwell. Well, actually we are coming out a little 
bit behind in the deal I think. The Federal Government is 
making out to the tune of $536, if I remember, give or take.
    Senator Thomas. We ought to hurry it a long on that then, 
had we not?
    [Laughter.]
    Mr. Blackwell. And we are happy to be able to do that.
    Senator Thomas. All right, sir. Thank you.
    Any questions?
    Senator Akaka. Thank you, Mr. Chairman.
    Mr. Blackwell, the administration has recommended that it 
supports the bill but asks that it be amended to explicitly 
state what the Federal Government's trust responsibilities are 
for the land that will be acquired by the Chickasaw Nation. In 
my experience, trust issues are not normally addressed as part 
of a minor land exchange proposal such as this. Does the 
Chickasaw Nation support the administration's request to define 
specific trust responsibilities in this bill?
    Mr. Blackwell. I appreciate the Senator's attention to 
this. I am a little confused about it. I do not see any change 
in the roles or responsibilities that have existed now between 
the Chickasaw Nation and the Federal Government for over 200 
years. Specifically on this piece of land, the relationship has 
been pretty well defined for over 100 years. I find it 
unnecessary to go into a great deal of detail. The folks at 
home, the tribal officials, the National Park Service, local 
park people, and the city of Sulphur people have worked this 
out over the last 15 years. It is for a cultural center. The 
trust responsibility of the Federal Government is much the same 
as it is for any land held in trust for a tribe, any tribal 
government around the country.
    But this is for a cultural center. What is going to be 
constructed on that land, Senator, is a replica of traditional 
village prior to white contact.
    Senator Thomas. Well, we thank you very much for being 
here. As difficult as it is sometimes, we will try and move 
this bill along.
    Mr. Blackwell. I understand that, Senator, and I appreciate 
it.
    Senator Thomas. Thank you very much.
    If there is no further business, the committee is 
adjourned.
    [Whereupon, at 3:20 p.m., the hearing was adjourned.]

    [The following statement was received for the record:]

  Statement of Dennis M. Wint, President and Chief Executive Officer, 
                  Franklin Institute, Philadelphia, PA

    I am Dr. Dennis Wint, President and Chief Executive Officer of The 
Franklin Institute of Philadelphia, Pennsylvania.
    I very much appreciate your willingness to consider Senate Bill 
1852, a bill to authorize Federal funding for the rehabilitation of the 
Benjamin Franklin National Memorial. Further, I would like to take this 
opportunity to extend my gratitude to the sponsors of this 
legislation--Senator Arlen Specter and Senator Rick Santorum for their 
steadfast support for the restoration of the Benjamin Franklin National 
Memorial.
    Mr. Chairman, I respectfully urge the Subcommittee to favorably 
report this legislation because it will authorize the appropriation of 
funding that is critical to the integrity of one of our nation's most 
awe-inspiring national memorials--the Benjamin Franklin National 
Memorial at The Franklin Institute in Philadelphia, Pennsylvania. 
Unveiled in 1938, this national memorial is unique, because unlike 
other national memorials throughout the United States, it does not 
receive an annual allocation of Federal funds to support programs, 
operations, or preventative maintenance.
    Founded in 1824, The Franklin Institute is one of the nation's 
premier science and technology museums and also serves as custodian of 
the Benjamin Franklin National Memorial.
    In the spirit of inquiry and discovery embodied by Benjamin 
Franklin, the mission of The Franklin Institute is to honor the 
lifetime achievements of America's distinguished scientist, statesman, 
inventor, diplomat, and founding father and to foster the development 
of a scientifically and technologically literate society.
    Indeed, The Franklin Institute brings Franklin's legacy of inquiry, 
discovery, and learning to nearly one million visitors each year, over 
350,000 of whom are visiting schoolchildren. Every visit to The 
Franklin Institute begins with a moment of reflection and inspiration 
in the Benjamin Franklin National Memorial.
    In 1972, Public Law 92-511 designated this site as the Benjamin 
Franklin National Memorial.
    In 1973, a Memorandum of Agreement, executed between the U.S. 
Department of the Interior and the Franklin Institute, directed the 
Department of Interior to cooperate with the Institute in ``all 
appropriate and mutually agreeable ways in the preservation and 
presentation of the Benjamin Franklin National Memorial Hall as a 
national memorial.'' Under the terms of the 1973 Agreement, the 
Institute is required to admit the public to Memorial Hall free of 
charge.
    However, The Franklin Institute is a 501(c)(3) non-profit 
organization, and over the last 66 years, the burden of maintaining 
this national memorial has been the total responsibility of The 
Franklin Institute. More than $15 million has been expended from The 
Franklin Institute's operating and capital budgets to preserve and 
maintain the memorial since 1938 when the Memorial was built.
    In spite of our diligent efforts to maintain and expenditure of 
Institute resources, I regret to inform the Subcommittee that this 
national treasure has fallen victim to the pressures of time, 
especially the interior marble surfaces and structures that house the 
statue of Benjamin Franklin, and the exterior.
    The Interior Department has not provided any federal funding to the 
Franklin Institute for maintaining this national memorial with the 
exception of a $300,000 ``Save America's Treasures'' grant awarded in 
Fiscal Year 2000. Although this funding did help to improve ADA 
accessibility to the memorial, it left other structural and surface 
issues unresolved. To address these issues, The Franklin Institute is 
currently engaged in a private fundraising campaign that is expected to 
yield over $7 million for the restoration of the Memorial and exhibit 
enhancement.
    Mr. Chairman, timely passage of this legislation is important 
because we are eager to renovate and restore the Memorial by 2006, 
which is the 300th anniversary of the birth of Benjamin Franklin.
    In July 2002, President George W. Bush signed into law House 
Resolution 2362, that created the Benjamin Franklin Tercentenary 
Commission. This Commission, which I co-chair with Senator Specter, is 
charged with studying and recommending programs and activities 
appropriate for this important anniversary.
    Since the Memorial Hall's opening in 1938, tens of millions of 
Americans have had the opportunity to salute Franklin's remarkable 
impact in Philadelphia at this Hall. As we continue to develop plans to 
welcome visitors from throughout the world to visit the Memorial and 
Philadelphia, it is important that the Franklin Institute commence on 
the meticulous restoration to make the Memorial a place of appropriate 
reverence to Dr. Franklin on this momentous anniversary of his birth.
    Our private fundraising campaign will help match our request for 
federal assistance. However, it is critical for The Franklin Institute 
to secure this one-time authorization and appropriation to ensure that 
the Benjamin Franklin National Memorial is preserved and presented to 
future generations in a manner befitting Benjamin Franklin's enormous 
legacy for our Nation.
    A rehabilitated Memorial will present Franklin and his 
inspirational story for the study and observation of future generations 
of Americans and citizens worldwide. Accordingly, I respectfully urge 
this Subcommittee to support Senate Bill 1852 so that it may pass 
Congress before adjournment of the 108th Congress.
    Thank you for your invitation to testify on this very important 
matter.

                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

                        Department of the Interior,
           Office of Legislative and Congressional Affairs,
                                   Washington, DC, October 8, 2004.
Hon. Craig Thomas,
Chairman, Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
    Dear Mr. Chairman: Enclosed are answers to the follow-up questions 
from the hearing held by the Subcommittee on National Parks on July 15, 
2004, on S. 1852, S. 2142, S. 2181, S. 2374, S. 2397, S. 2342, S. 2567, 
H.R. 1113 and H.R. 3706. These responses have been prepared by the 
National Park Service.
    Thank you for giving us the opportunity to respond to you on this 
matter. We apologize for the delay in our response,
            Sincerely,
                                             Jane M. Lyder,
                                               Legislative Counsel.
[Enclosure.]
                  Questions From Senator Craig Thomas
    Question 1A. S. 1852, Benjamin Franklin National Memorial: The bill 
authorizes up to $10 million for rehabilitation of the Franklin 
Memorial.
    How will the funds be used and is $10 million enough to complete 
the rehabilitation effort?
    Answer. As stated in our testimony, the Department does not support 
this $10 million grant. After checking with the Franklin Institute, it 
offered the following information in response to this question:
    In preparation for the commemoration of Franklin's 300th birthday, 
the Franklin Institute has indicated that it intends to revitalize this 
non-federal memorial and create a space of reverence for its growing 
number of visitors. In addition to drawing up architectural plans that 
will maintain the National Memorial's historic integrity, it has plans 
for this public space that include the following major enhancements:

  <bullet> Repair and restoration of the self-supporting dome of the 
        National Memorial;
  <bullet> Professional cleaning and refurbishment of entrance stairs, 
        marble walls, floors, and the 30-ton Franklin statue;
  <bullet> Creation of a cutting-edge multi-media experience, including 
        sound, video, and holographic technologies;
  <bullet> Dramatic new lighting and signage, appropriate inscription 
        of inspirational quotations, and audiovisual additions to 
        enhance the Memorial experience; and
  <bullet> Creation of a 10,000 square foot exhibit adjacent to the 
        National Memorial dedicated wholly to Benjamin Franklin, 
        featuring an unmatched collection of Frankliniana from around 
        the world.

    With a total project cost of $17.8 million, the Institute believes 
that $10 million in Federal funding, when combined with private sector 
funding from local and regional sources (see below) would be sufficient 
to complete this rehabilitation effort.
    Question 1B. Does the state or local community plan to provide any 
funds to support this effort?
    Answer. We understand that the Franklin Institute anticipates being 
able to raise the balance of funding for this $17.8 million project 
through the generosity of a myriad of funding sources, including, but 
not limited to, the Commonwealth of Pennsylvania, the City of 
Philadelphia, and local and regional private fenders, including 
corporations, foundations, and individuals.
    Question 1C. S. 1852, Benjamin Franklin National Memorial: How many 
visitors does the Franklin Memorial receive in a given year?
    Answer. According to the Franklin Institute, the Benjamin Franklin 
National Memorial welcomes 800,000 visitors annually, 300,000 of whom 
are visiting schoolchildren. However, the memorial is located in the 
rotunda of the Franklin Institute so it hard to clarify if visitors are 
going to the Franklin Institute and pass by the memorial or if the 
statue is the main reason for their visit.
    Question 2A. S. 2142, New Jersey Coastal Heritage Trail Route: This 
is neither a Heritage Area or a Trail.
    What type of unit of the National Park System is it?
    Answer. This is an affiliated area of the National Park System, 
however, it was established as a ``unique'' project at the time (1988) 
that was intended to use interpretation alone as the mechanism to build 
awareness and stewardship leading to resource protection rather than 
the traditional use of Federal ownership and Federal management of the 
resources. The trail is unusual in that the National Park Service does 
not directly own or manage any land, buildings, or natural or cultural 
resources or provide employees for guided tours or visitor/welcome 
centers. Everything is done through partnerships with the partners 
owning, staffing, and managing the resources. The National Park 
Service, however, does provide technical assistance in the form of 
brochures, wayside exhibits, orientation exhibits, welcome center 
exhibits, resource publications, films, advice on interpretation and 
resource protection that all strive to raise public awareness of New 
Jersey's varied natural and cultural resources. In the process of 
raising awareness, we hope that it will also lead to increased 
stewardship and protection of those resources at a minimal cost and 
without the use of traditional Federal ownership.
    Question 2B. How many other units of this type does the National 
Park Service have?
    Answer. There are currently 25 affiliated areas of the National 
Park System. There are no other affiliated areas that are similar to 
the New Jersey Coastal Heritage Trail Route that only use 
interpretation for resource protection and stewardship.
    Question 3. S. 2142, New Jersey Coastal Heritage Trail Route: The 
bill raises the ceiling for funds that are authorized to be 
appropriated. How do you anticipate using the funds and have any funds 
been obtained from sources other than the Federal government?
    Answer. The Trail calls for the development of five interpretive 
theme trails (Maritime History, Coastal Habitats, Wildlife Migration, 
Relaxation & Inspiration, and Historic Settlements) and five regional 
welcome centers (in facilities owned and staffed by partners.) To date, 
three of the themes and two welcome centers have been developed.
    The remaining activities to fulfill elements within the approved 
Implementation Guide include:

  <bullet> Develop remaining two theme trails focusing on cultural 
        sites.
  <bullet> Upgrade exhibits for existing two welcome centers and 
        develop remaining three welcome centers including videos, 
        brochures, and exhibits. All welcome centers are owned, 
        operated and staffed by partners.
  <bullet> Produce additional wayside exhibits for trail sites for 
        remaining two theme routes.
  <bullet> Develop new overall trail orientation video as well as four 
        regional videos.
  <bullet> Update all regional and trail-wide brochures as theme trails 
        are completed.
  <bullet> Develop complete highway directional system.
  <bullet> Provide technical assistance to state park system, wildlife 
        management areas, historic sites, and other non-profits in 
        their efforts to preserve and interpret significant natural and 
        cultural resources at trail sites.
  <bullet> Periodically review and re-certify trail sites as official 
        destinations.
  <bullet> Develop additional regional videos, resource publications; 
        and school materials as funds and opportunities for new 
        partnerships or funding allow.
  <bullet> Develop a long-term transitional management plan for the 
        roles of the National Park Service and its partners following 
        initial implementation.

    Based on the 1994 legislation, there is now a requirement that 
Federal dollars be matched on a 1:1 basis. The trail has raised 
approximately $1.9 million in non-federal grants, and partners have 
provided an estimated $3.6 million in in-kind services.
    Question 4. S. 2181, Rocky Mountain National Park Boundary 
Adjustment: Has the park identified other areas for potential 
acquisition? If so, how many acres and what is your timeline for 
acquisition?
    Answer. Each year Rocky Mountain National Park sets priorities for 
land acquisition and submits this information for inclusion in the NPS 
Land Acquisition Ranking System. For FY 2006, we have identified 3 
parcels of land at Rocky Mountain with a combined area of 77.9 acres as 
potential acquisitions. After the submittal of these parcels, they are 
rated and ranked at the Regional and Washington level and placed in 
priority order on the nationwide land acquisition list. Typically, only 
a few of the projects identified as potential acquisitions are selected 
from this list for inclusion in the President's budget submission. As 
such, it is impossible to state what the timeline for acquisition would 
be for these parcels.
    Question 5A. S. 2374, Chickasaw National Recreation Area Land 
Exchange: The land to be conveyed to the Chickasaw Nation will be the 
site of a new Chickasaw Nation Cultural Center.
    Will the National Park Service have any role in managing or 
providing interpretive programs in the cultural center?
    Answer. No, it is not envisioned that the NPS will have a direct 
role in managing or providing interpretation at the cultural center. 
There is always the possibility of a future partnership between the 
Nation and the NPS, but there are no definitive plans.
    Question 5B. If so, how many National Park Service employees are we 
talking about and will the Park Service be reimbursed for the effort?
    Answer. See answer above.
    Question 6A. S. 2397 and H.R. 3706, John Muir National Historic 
Site Boundary Adjustment Act: The National Park Service identified 0.2 
acres adjacent to the [park] that no one owns.
    Are you confident that no one has title to the 0.2 acres?
    Answer. Yes. There has been an exhaustive search for the title for 
this piece of property. We are confident that no one has title.
    Question 6B. What is the anticipated cost to complete the 
transactions for the National Park Service to take ownership of the 
property?
    Answer. We anticipate that it will cost less than $5,000 for title 
work and a hazardous materials survey for the property.
    Question 6C. Has the National Park Service been managing the 
property during the last several years?
    Answer. Yes, the park has been maintaining the property. This 
includes grass cutting during fire season, fence work, and maintenance 
of trees on the plot.
    Question 7. S. 2432, Wilson's Creek National Battlefield: The bill 
is titled Wilson's Creek Battlefield National Park, but you refer to it 
in your testimony as Wilson's Creek National Battlefield. What is the 
correct name and should the bill be amended to reflect the correct 
name?
    Answer. The correct name is Wilson's Creek National Battlefield. 
The name was changed from ``Wilson's Creek Battlefield National Park'' 
to ``Wilson's Creek National Battlefield'' in the Act approved December 
16, 1970 (84 Stat. 1441). The bill should be amended to reflect the 
correct name.
    Question 8A. S. 2432, Wilson's Creek National Battlefield: The bill 
will authorize acquisition of the Sweeney Museum property and 
collection, which is considered one of the most complete private civil 
war artifacts collections in existence.
    What is the approximate cost to the Federal government to acquire 
the collection?
    Answer. The appraised value of the collection is between $2.5 and 
$3.0 million as stated in our testimony. The buildings and property 
have not been appraised but we estimate they will cost an additional 
$1.5 to $2.0 million. The total for the collection, property, and 
buildings is estimated to be $4 to $5 million.
    Question 8B. Does the National park Service have adequate space to 
house and interpret the collection?
    Answer. The collection is displayed and interpreted in General 
Sweeney's Museum, which is part of the approximately 20 acres in Area 
1. The museum building, a garage, and a house would be included in the 
purchase of the area, along with the collection. The collection will 
remain in the museum. A few of the objects may be moved to the present 
visitor's center to be displayed as part of the battlefield exhibit 
there.
    Question 8C. How many additional employees will it take to curate 
and interpret the collection?
    Answer. The operational cost of the Sweeney collection and land 
structures is estimated at $512,000. Additional funding and employees 
would be needed to preserve and provide public access to the Sweeney 
Museum collection. These employees would provide museum services, 
facility maintenance, utility costs, information technology support, 
security and interpretation. They would also ensure that a meticulously 
documented collection of between 8,000 and 10,000 museum objects are 
preserved and managed, 12,000 square feet of facilities is properly 
maintained, and public access and interpretation are provided for 
200,000 visitors (including over 8,000 students) annually. These 
estimates, however, have not been reviewed through the budget process 
or evaluated against other competing priorities. There may also be 
opportunities for reducing these costs through improved efficiencies 
and greater coordination with other NPS programs or activities. The 
following is a break down of the number of FTEs needed and the 
operational costs:

------------------------------------------------------------------------
                                                        FTE     Funding
                      Function                        Needed     Needed
------------------------------------------------------------------------
Curator............................................     1.0      $80,000
Interpreters.......................................     3.0      170,000
Education Specialist...............................     1.0       80,000
Contract Preventative Maintenance of Structures and     1.0       82,000
 Grounds...........................................
Provide Utilities..................................               20,000
Administrative Support.............................     0.5       35,000
Contract IT Support................................     0.5       45,000
                                                    --------------------
    Totals.........................................     7.0     $512,000
------------------------------------------------------------------------

    Question 9A. S. 2567, Redwood National Park boundary adjustment: 
The joint Federal/State management arrangement at Redwood National Park 
is unusual within the National Park System.
    Do you find this arrangement to be a cost-saving measure for the 
Federal government?
    Answer. Yes. The coordinated management of the Redwood national and 
state parks is more efficient and effective than separate management 
would be. The two entities are able to integrate their ranger forces, 
coordinate resource management and interpretive functions and share 
facilities, campgrounds, and maintenance staff. This cuts costs for 
both the Federal government and the state government.
    In a larger sense, the Federal government is saving money by the 
continued state ownership and management of about one third of the land 
within the boundary of Redwood National Park. Had the state conveyed 
its Redwood parks to the National Park Service, as was envisioned in 
the 1968 legislation that established Redwood National Park, the 
Federal government would be financing 100 percent of the cost of the 
park.
    In a similar vein, Senator Akaka asked at the July 15 hearing what 
the relative funding contribution was of the National Park Service and 
the State of California's Department of Parks and Recreation for the 
management of the Redwood National and State Parks. We offered to 
answer that question for the record. For Fiscal Year 2004, the state is 
contributing $1.3 million in operational funds (about 15 percent), and 
the National Park Service is contributing $7.4 million (about 85 
percent). However, the state figure does not include significant 
funding from the State Department of Parks and Recreation for planning, 
resource management, and road and trail maintenance that is not 
accounted for in individual state park budgets.
    Question 9B. If so, which other units of the National Park System 
would be good candidates for such an arrangement and are you actively 
pursuing changes at those parks?
    Answer. The cooperative management authority that was provided for 
Redwood National Park in 1997 to enable it to coordinate management 
functions with the Redwood state parks was extended to all units of the 
National Park System in Section 802 of the National Park Service 
Omnibus Management Act of 1998 (P.L. 105-391). Although there are no 
other national park units that have integrated the management of the 
Federal and state parks to the extent that managers have done at 
Redwood National and State Parks, there are several units that 
currently have cooperative management agreements with state or local 
parks. Examples include Golden Gate National Recreation Area, Santa 
Monica Mountains National Recreation Area, Boston Harbor Islands 
National Recreation Area, Lowell National Historical Park, Fort Stanwix 
National Monument, Klondike Gold Rush National Historical Park, and 
Lyndon B. Johnson National Historical Park. We anticipate that 
cooperative management agreements will be used between the National 
Park Service and the states of Washington and Oregon if Congress enacts 
pending legislation to establish the Lewis and Clark National 
Historical Park. The National Park Service will continue to pursue 
opportunities throughout the system to enter into agreements with state 
and local park authorities to share operational resources where that 
will result in more effective and efficient use of staff and funding.
    Question 10. H.R. 1113, Fort Frederica National Monument land 
exchange: Does any above ground structure remain on the former 
homestead of James Oglethorpe?
    Answer. The land that the NPS would receive has traditionally been 
identified as the site of the home of James Oglethorpe. Although the 
land is privately owned, one limited archeological investigation 
confirmed that a house site on the property was from the Frederica 
period. No above ground remains from the Frederica era are present.
    Question 11. H.R. 1113, Fort Frederica National Monument land 
exchange: Does the National Park Service plan to build any structures 
or hire new personnel to protect and interpret the property it will be 
receiving from the church?
    Answer. The extent of NPS development will be based upon the level 
and significance of the resources that are present. Any development 
would be planned through either a Development Concept Plan or an 
amendment to the General Management Plan where recommendations would be 
made for structures and staffing. At this time NPS does not plan to 
construct any facilities other than perhaps some limited parking for 
access, fencing, signage, and limited interpretive media for the site 
such as bulletin boards or wayside exhibits. Some staffing will be 
required to administer, maintain, and protect the site, but until the 
level of resources present on the site is determined it is difficult to 
state what level of staffing will be required and whether the staffing 
can be absorbed within existing resources or will require new 
personnel.


</pre></body></html>
